<html>
<title> - H.R. 2692, UNITED STATES FIRE ADMINISTRATION AUTHORIZATION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                     H.R. 2692, UNITED STATES FIRE
                      ADMINISTRATION AUTHORIZATION
                              ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2003

                               __________

                           Serial No. 108-22

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-232PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
JOHN SULLIVAN, Oklahoma              SHEILA JACKSON LEE, Texas
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                PETER ROONEY Subcommittee Staff Director
              DAN BYERS Professional Staff Member/Designee
            JIM WILSON Democratic Professional Staff Member
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                      JAMES HAGUE Staff Assistant


                            C O N T E N T S

                             July 17, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Subcommittee on Research, Committee on 
  Science, U.S. House of Representatives.........................    15
    Written Statement............................................    16

Prepared Statement by Representative John Sullivan, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    16

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    17

                                Panel 1:

Honorable Dave Camp, Member, U.S. House of Representatives from 
  the State of Michigan
    Oral Statement...............................................    17
    Written Statement............................................    19

Discussion.......................................................    20

                                Panel 2:

Mr. David Paulison, U.S. Fire Administrator and Director, 
  Preparedness Division of the Emergency Preparedness & Response 
  Directorate/FEMA, Department of Homeland Security
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    28

Dr. Arden L. Bement, Jr., Director, National Institute of 
  Standards and Technology
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    33

Discussion.......................................................    33

                                Panel 3:

Mr. Dennis Compton, Immediate Past Chair, Board for the 
  International Fire Service Training Association
    Oral Statement...............................................    45
    Written Statement............................................    46
    Biography....................................................    50
    Financial Disclosure.........................................    53

Dr. John R. Hall, Jr., Assistant Vice President, Fire Analysis 
  and Research, National Fire Protection Association
    Oral Statement...............................................    54
    Written Statement............................................    55
    Biography....................................................    58
    Financial Disclosure.........................................    60

Discussion.......................................................    63

             Appendix 1: Additional Material for the Record

H.R. 2692, United States Administration Authorization Act of 2003    70

H.R. 545, Firefighting Research and Coordination Act.............    74


 H.R. 2692, UNITED STATES FIRE ADMINISTRATION AUTHORIZATION ACT OF 2003

                              ----------                              


                        THURSDAY, JULY 17, 2003

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     H.R. 2692, United States Fire

                      Administration Authorization

                              Act of 2003

                        thursday, july 17, 2003
                          9:30 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. PURPOSE

    On Thursday, July 17th, 2003, the Research Subcommittee of the 
House Science Committee will hold a hearing to examine U.S. Fire 
Administration (USFA) programs and activities and H.R. 2692, the U.S. 
Fire Administration Authorization Act of 2003. The USFA, housed within 
the Federal Emergency Management Agency (FEMA) and located in 
Emmitsburg, Maryland, is charged with helping to prevent and limit 
fire-related losses. Its activities revolve around four primary areas: 
training, public education, research, and data collection and analysis. 
On March 1, 2003, USFA and FEMA officially became part of the Emergency 
Preparedness and Response Directorate of the Department of Homeland 
Security (DHS).

2. WITNESSES

Panel 1

The Honorable Dave Camp is the Representative of the 4th Congressional 
District of Michigan. First elected to Congress in 1990, Mr. Camp sits 
on the Ways and Means Committee and the Homeland Security Committee, 
where he chairs the Subcommittee of Infrastructure and Border Security.
Panel 2

Mr. David Paulison is the U.S. Fire Administrator and Director of the 
Preparedness Division of the Emergency Preparedness & Response 
Directorate/FEMA in the Department of Homeland Security. Prior to his 
appointment as U.S. Fire Administrator in December 2001, he was chief 
of the Miami-Dade Fire Rescue Department. Administrator Paulison has 30 
years of fire rescue experience and was selected as Florida's fire 
chief of the year in 1993.

Dr. Arden Bement is Director of the National Institute of Standards and 
Technology, a position he has held since December 2001. Before 
receiving this appointment, Bement served as the David A. Ross 
Distinguished Professor of Nuclear Engineering and head of the School 
of Nuclear Engineering at Purdue University. From 1989 to 1995, Dr. 
Bement was a member of the U.S. National Science Board, the governing 
board for the National Science Foundation. He is also a member of the 
U.S. National Academy of Engineering.
Panel 3

Mr. Dennis Compton is the immediate past Chair of the Board for the 
International Fire Service Training Association. Chief Compton has 
served for over 32 years in the fire service--27 years with the Phoenix 
Fire Department and five years as the Mesa Chief. He was selected as a 
charter member of the Arizona Fire Service Hall of Fame and recently 
received the Congressional Fire Services Institute (CFSI) 2003 Mason 
Lankford National Fire Service Leadership Award.

Dr. John Hall is Assistant Vice President for Fire Analysis and 
Research at the National Fire Protection Association (NFPA). This 
division at NFPA is responsible for the measurement of the national 
fire problem and the communication of the results as a statistical 
basis for fire protection strategies. Dr. Hall was formerly an 
Operations Research Analyst with the U.S. Fire Administration. He holds 
a B.A. in Mathematics from Brown University and a Ph.D. in Operations 
Research from the University of Pennsylvania.

3. OVERARCHING QUESTIONS

    The hearing will address the following overarching questions:

        1. LWhat is the status of traditional USFA activities, such as 
        public education and outreach, fire research and data analysis, 
        and emergency responder training programs? Does H.R. 2692 
        adequately address issues relevant to these programs?

        2. LWhat is the status of the USFA Assistance to Firefighters 
        Grant Program, and should Congress modify the program in H.R. 
        2692?

        3. LWhat is the need for development of testing methodologies 
        and standards for new firefighting technologies, and what are 
        the pros and cons of H.R. 545, the Firefighting Research and 
        Coordination Act?

        4. LWhat is the status of USFA-supported fire research 
        programs? How is USFA's relatively small research budget being 
        leveraged and coordinated with related efforts at the National 
        Institute of Standards and Technology and the Department of 
        Homeland Security's Science and Technology Directorate?

4. BACKGROUND

        <bullet> LIn the early 1970's, a report by the President's 
        National Commission on Fire Prevention and Control entitled 
        America Burning presented a dismal assessment of fire safety in 
        the United States. The report found that nearly 12,000 citizens 
        and 250 firefighters were lost to fire annually, in addition to 
        approximately 300,000 injuries.

        <bullet> LIn response to the report, Congress created the USFA 
        and the National Fire Academy. The USFA, housed within the 
        Federal Emergency Management Agency (FEMA) and located in 
        Emmitsburg, Maryland, is charged with helping to prevent and 
        control fire-related losses. Its activities revolve around four 
        primary areas: training, public education, research, and data 
        collection and analysis.

        <bullet> LWhen the USFA was established in 1974, its goal was 
        to reduce by half the number of fire-related fatalities in the 
        Nation--bringing the number to approximately 6,000 or less per 
        year within a generation. The agency met this goal, and by 1998 
        civilian fire deaths were at their lowest level. Additionally, 
        using nearly any measure--number of fires, deaths, injuries, or 
        property losses--the statistics also reflect a declining trend.

        <bullet> LDespite this significant progress, the United States 
        still has one of the worst fire safety records in the 
        industrialized world. The per capita death rate remains two to 
        three times that of several European nations and at least 20 
        percent higher than most developed countries. Fire remains the 
        cause of approximately 3,700 deaths and $11 billion in economic 
        damages each year, and every 18 seconds a fire department 
        responds to a call somewhere in the United States.
USFA Organization and Programs
    USFA's mission is to provide leadership, coordination, and support 
for the Nation's fire prevention and control, fire training and 
education, and emergency medical services activities, particularly for 
America's 26,350 fire departments. USFA's five-year operational 
objectives, established in 2000, aim to reduce the loss of life from 
fire in the United States by 15 percent, through targeted reductions of 
25 percent for high-risk populations: children 14 years and below, 
adults 65 years and above, and firefighters.
    USFA programs include the following:

Assistance to Firefighters Grant Program--Established in FY 2001, this 
program awards grants directly to fire departments to supplement basic 
needs (described in more detail below).

Data Collection--USFA's National Fire Data Center (NFDC) administers a 
national system for collecting, analyzing and disseminating data and 
information on fire and other emergency incidents to State and local 
governments and the fire community. The NFDC provides a national 
analysis of the fire problem, identifying problem areas for which 
prevention and mitigation strategies are needed.

Public Education and Awareness--Through partnerships and special 
initiatives, USFA involves the fire service, the media, other federal 
agencies and safety interest groups in the development and delivery of 
fire safety awareness and education programs. These programs are 
targeted at those groups most vulnerable to the hazards of fire, 
including the young, elderly, and disabled. For example, USFA recently 
announced the development of an aggressive plan to advocate increased 
use of residential fire sprinklers, which have become significantly 
more effective and less costly due to new technology, but remain 
utilized in only a very small percentage of homes.

Training--USFA's National Fire Academy offers educational opportunities 
for the advanced professional development of mid-level and senior fire 
and emergency medical service officers and allied professionals 
involved in fire prevention and life safety activities. The Academy 
develops and delivers educational and training programs with a national 
focus that is aimed at supplementing and supporting State and local 
fire service training. In 2002, the Academy trained almost 8,000 
firefighters in various courses at Academy headquarters in Emmitsburg, 
86,000 firefighters through off-campus training programs (primarily 
administered through support of state training programs), and 195,000 
through its distance-learning program. It is estimated that NFA has 
trained over 1.4 million students through on-campus and off-campus 
training programs since its establishment in 1975.
    In 2003, an organizational change within FEMA as part of the 
agency's transfer into the Department of Homeland Security resulted in 
the transfer of FEMA's Emergency Management Institute (EMI) into USFA. 
Through a combination of on-campus, off-campus, and distance learning 
courses similar to those at NFA, EMI serves as the focal point for the 
development and delivery of emergency incident management training. 
Together, EMI and NFA now comprise USFA's National Emergency Training 
Center (NETC), also headquartered in Emmitsburg, Maryland.

Research--Through research, testing and evaluation, USFA works with 
public and private entities to promote and improve fire and life 
safety. For fiscal year (FY) 2003, USFA research activities were 
authorized at $3.5 million. These activities are administered in 
cooperation with the Building and Fire Research Laboratory (BFRL) at 
the National Institutes of Standards and Technology (NIST). For 
example, USFA-NIST cooperative research focusing on residential fire 
protection technologies successfully resulted in the development and 
enhancement of national consensus standards for sprinkler applications 
for residential occupancies-where most of fire deaths occur.
    The current USFA authorization legislation (P.L. 106-503) directed 
USFA to work with NIST, private organizations, and State and local 
government to develop a prioritized research agenda for the agency. The 
agenda, completed in 2001, identified as top priorities research 
projects that focus on improving the safety of high-risk populations 
such as children, senior citizens, and firefighters, reflecting USFA's 
agency-wide fire safety goals.

Budget--The President's FY 2004 budget request for USFA ``base'' 
activities (those except for the Assistance to Firefighters Grant 
Program, which is authorized through FY 2004), is $61.0 million, a 49 
percent increase above the FY 2003 request. This increase is in part 
due to the transfer of EMI into USFA as part of FEMA reorganization. 
USFA has not yet provided Congress written information detailing the FY 
2004 request or FY 2003 current appropriations plan. Agency activities 
are currently authorized at $50 million for FY 2003.
Assistance to Firefighters Grant Program
    The Assistance to Firefighters Grant Program (Also known as the 
FIRE Act Grant Program) at USFA was established by Congress to provide, 
through competitively awarded matching grants, direct financial 
assistance to local fire departments for basic equipment and training 
needs. For the FY 2003 grant program, Congress appropriated, and 
President Bush signed into law, $745 million for the grant program. To 
ensure USFA has adequate time to distribute the funding effectively, 
Congress allowed the agency until the end of FY 2004 to obligate all of 
the funds.
    In FY 2003, fire departments were eligible to apply for grants in 
one of four program areas:

        1. LFire Operations and Firefighter Safety. Eligible activities 
        under this function are limited to training, wellness and 
        fitness, firefighting equipment, personal protective equipment, 
        and modifications to fire stations and facilities.

        2. LFire Prevention. Eligible activities under this function 
        include, but are not limited to, public education and awareness 
        activities, fire codes enforcement activities, fire inspector 
        certifications, purchase and installation of smoke alarms and 
        fire suppression systems, wildland mitigation, and arson 
        prevention and detection activities.

        3. LEmergency Medical Services. Eligible activities under this 
        function for fire-based EMS units are limited to equipment, 
        training, and wellness and fitness initiatives. Vehicles, such 
        as ambulances, are not eligible in this programmatic area.

        4. LFirefighting Vehicles Acquisition. Eligible apparatus under 
        this program include, but are not limited to, pumpers, brush 
        trucks, tankers, rescue, ambulances, quints (advanced fire 
        trucks with space for extra personnel and equipment), aerials, 
        foam units, and fireboats. You may apply for only one vehicle 
        per year.

    USFA received 19,949 applications for over $2 billion in federal 
funding, and began awarding grants in June. As of July 11, 2003, USFA 
had announced 800 awards totaling $48 million. By September of 2004, 
USFA plans to have obligated the full $745 million through grants to 
approximately 7,000 fire departments.
    In the FY 2004 budget request, the Administration proposed 
transferring the Assistance to Firefighters grant program to the Office 
of Domestic Preparedness within the Department of Homeland Security, to 
be funded at $500 million. The proposed transfer is part of the 
Administration's effort to consolidate the counter-terrorism programs 
for emergency responders. While supportive of the first responder 
program, many in the fire services community have expressed concern 
about the transfer of the Assistance to Firefighters Grant Program out 
of USFA, arguing the proposal may result in a shift in program focus 
toward specialized equipment and training when many fire departments 
still lack the minimum tools and resources necessary for day-to-day 
emergency response.
    On June 24, 2003, the House approved the FY 2004 spending bill for 
the Department of Homeland Security (DHS), providing $750 million for 
the Assistance to Firefighters Grant Program and explicitly directing 
that the funds be administered from the Emergency Preparedness and 
Response Directorate. On July 10, the Senate Appropriations Committee 
approved its version of the bill, also providing $750 million for the 
program, but placing it within the Border and Transportation Security 
Directorate per the Administration's request.
H.R. 2692, the United States Fire Administration Authorization Act of 
        2003
    H.R. 2692, introduced on July 10, 2003 by representatives Smith 
(MI) and Johnson (TX), authorizes appropriations for ``base 
activities'' (those excluding the Assistance to Firefighters Grant 
Program, which is authorized through FY 2004) at the Fire 
Administration of $61.0, $62.83, and $65 million annually for fiscal 
years FY 2004 through FY 2006, respectively. These amounts reflect the 
FY 2004 budget request, with approximately 3 percent annual increases 
thereafter. The legislation also:

        <bullet> LReinstates the position of U.S. Fire Administrator as 
        a Presidentially-appointed, Senate-confirmed position (this was 
        unintentionally eliminated by the Homeland Security Act of 2002 
        by a broader provision modifying the status of executive 
        positions transferred into the department).

        <bullet> LRequires the Administrator to develop and implement a 
        strategy for promoting the installation and use of residential 
        fire sprinklers.

        <bullet> LTransfers responsibility for administration of the 
        Assistance to Firefighters Grant Program from the Director of 
        FEMA to the USFA Administrator.

    On June 19, 2003, the Senate Commerce Committee approved S. 1152, 
its version of the USFA Authorization legislation. S. 1152 authorizes 
USFA activities through FY 2008, and differs from H.R. 2692 primarily 
in its inclusion of provisions from S. 321, the Firefighting Research 
and Coordination Act. S. 321 and its companion in the House, H.R. 545, 
introduced by Representative Camp (MI), would (1) authorize the 
Administrator to develop standards for new firefighting technologies 
such as thermal imaging cameras and chemical protective equipment, and 
require that equipment purchased through the Assistance to Firefighters 
Grant Program meet those standards; (2) require the Administrator to 
work with State and local fire service officials to establish 
nationwide and State mutual aid systems for responding to national 
emergencies; and (3) authorize the National Fire Academy to train 
firefighters to offer courses to respond to acts of terrorism. A 
complete section-by-section analysis of both H.R. 2692 and H.R. 545 are 
included in the appendix.
Council on Foreign Relations Report on Emergency Response Needs
    On June 29, 2003, the Council on Foreign Relations, a foreign 
affairs think tank, released a report entitled, Emergency Responders: 
Drastically Underfunded, Dangerously Unprepared. The report was 
compiled by an Independent Task Force on Emergency Responders led by 
former Senator Warren Rudman and former White House cyber security 
chief Richard Clarke. The task force met with emergency responder 
organizations across the country to identify needs--not a wish list--
for minimum effective response to a catastrophic terrorist attack. The 
final unbudgeted needs of emergency responders was determined by the 
task force to be $98.4 billion, including almost $37 billion for the 
fire services. The report does not make clear how the task force 
arrived at this figure and how the how the $37 billion estimated need 
for the fire services is broken down according to equipment, personnel, 
training, etc.

6. QUESTIONS FOR WITNESSES

    In addition to being asked to provide written comment on H.R. 2692, 
witnesses were asked the following questions:
Questions for Administrator Paulison

        <bullet> LWhat is the Administration's position on the 
        provisions of H.R. 545, the Firefighting Research and 
        Coordination Act (enclosed)? What is the current process for 
        developing standards for new firefighting technologies, and how 
        does USFA contribute to this effort?

        <bullet> LWhat is the status of traditional USFA activities 
        such as public education and outreach, fire research and data 
        analysis, and National Fire Academy training programs? What is 
        the status of the USFA Assistance to Firefighters Grant 
        Program?

        <bullet> LWhat is the status of USFA-supported fire research 
        programs? Please provide a list of these activities, including 
        budget information. How do you work to leverage USFA's 
        relatively small research budget with related efforts at the 
        Department of Homeland Security, National Institute of 
        Standards and Technology, other federal agencies, and the 
        private sector?

        <bullet> LHow have USFA activities been affected by its recent 
        transition into the Emergency Preparedness and Response 
        Directorate of the Department of Homeland Security?

        <bullet> LPlease comment on the recently released report by the 
        Council on Foreign Relations, Emergency Responders: Drastically 
        Underfunded, Dangerously Unprepared. Are the findings and 
        recommendations, which call for an additional $36 billion 
        annually for the fire services, realistic?
Questions for Dr. Bement

        <bullet> LProvide an overview of fire research activities at 
        the National Institute of Standards and Technology (NIST), 
        including budget details. With regard to mission and focus, how 
        do NIST fire research activities compare to those at USFA? How 
        does NIST coordinate and prioritize these activities with USFA?

        <bullet> LWhat is the current process for developing standards 
        for new firefighting technologies, and how is NIST involved in 
        this effort? What challenges exist associated with 
        standardization of firefighting equipment and technologies? Has 
        the absence of standards in any particular areas acted as a 
        barrier to the introduction of new firefighting technologies?
Questions for Mr. Hall

        <bullet> LWhat is the NFPA position on H.R. 545, the 
        Firefighting Research and Coordination Act (enclosed)? What is 
        the current process for developing standards for new 
        firefighting technologies, and how is NFPA involved in this 
        effort? What challenges exist associated with standardization 
        of firefighting equipment and technologies? Has the absence of 
        standards in any particular areas acted as a barrier to the 
        introduction of new firefighting technologies?

        <bullet> LProvide an overview of the findings of the recent 
        FEMA/NFPA study, ``A Needs Assessment of the U.S. Fire 
        Service.'' How can Congress use the findings to strengthen USFA 
        in the pending reauthorization legislation?

        <bullet> LPlease comment on the findings and recommendations of 
        recently released report by the Council on Foreign Relations, 
        Emergency Responders: Drastically Underfunded, Dangerously 
        Unprepared. How did NFPA contribute to this study?
Questions for Mr. Compton

        <bullet> LWhat is the fire services community's opinion of 
        provisions in the enclosed legislation, H.R. 545, the 
        Firefighting Research and Coordination Act?

        <bullet> LIs the Assistance to Firefighters Grant Program 
        successfully meeting its charge to help the Nation's fire 
        departments meet basic firefighting equipment and training 
        needs necessary for day-to-day operations? Should the program 
        be modified in this reauthorization legislation, and if so, 
        how?

        <bullet> LWhat is the fire services community's general opinion 
        on the proposed consolidation of the Assistance to Firefighters 
        Grant Program with other first responder grant programs within 
        DHS, including the recent proposal to move the program into the 
        DHS Office of State and Local Government Coordination? What 
        other encouragements and concerns does the fire services 
        community have associated with the recent transition of FEMA 
        and USFA into the Emergency Preparedness and Response 
        Directorate of the Department of Homeland Security?

        <bullet> LHow effective has USFA been at administering 
        ``traditional'' agency activities such as public education, 
        outreach, and research, and data collection and analysis? 
        Please provide any recommendations for improving these 
        activities within USFA.

        <bullet> LPlease comment on the recently released report by the 
        Council on Foreign Relations, Emergency Responders: Drastically 
        Underfunded, Dangerously Unprepared. Are the findings and 
        recommendations, which call for an additional $36 billion 
        annually for the fire services, realistic?

7. APPENDIX I

                Section by Section Analysis of H.R. 2692

Introduced by Mr. Smith of Michigan and Ms. Johnson of Texas

Section 1. Short Title.

    ``United States Fire Administration Authorization Act of 2003''.

Section 2. United States Fire Administrator.

    Preserves the position of U.S. Fire Administrator as a 
Presidentially-appointed, Senate-confirmed position.

Section 3. National Residential Fire Sprinkler Strategy.

    Requires the Administrator to develop and implement a strategy for 
promoting the installation and use of residential fire sprinklers. 
Requires strategy to include advocacy and informational support to 
relevant stakeholders, with a particular focus on residences at high 
risk to fire hazards and occupants at high risk to fire hazards (such 
as senior citizens).

Section 4. Support for Training to Fight Maritime Fires.

    Amends the Assistance to Firefighters Grant Program to allow 
support for training to fight maritime fires as an eligible grant 
activity.

Section 5. Firefighters Assistance Grants Program.

    Transfers responsibility for administration of the program from the 
Director of the Federal Emergency Management Agency (FEMA) to the 
Administrator of the U.S. Fire Administration (USFA).

Section 6. Authorization of Appropriations.

    Authorizes appropriations for USFA of $61.0, $62.83, and $65 
million annually for fiscal years FY 2004 through FY 2006, 
respectively.

Section 7. Courses and Training Assistance.

    Clarifies that National Fire Academy Superintendent, in offering 
training courses, work to accommodate as many geographic areas and 
needs of firefighters as possible.

8. APPENDIX II

                Section-by-Section Analysis of H.R. 545

Introduced by Mr. Camp of Michigan

Section 1. Short title.

    ``Firefighting Research and Coordination Act.''

Sec. 2. New firefighting technology.

    Subsection (a) would establish a new section 8(e) of the Federal 
Fire Prevention and Control Act of 1974 (15 U.S.C. 2207). This new 
subsection would direct the Administrator, in consultation with the 
National Institute of Standards and Technology, the Inter-Agency Board 
for Equipment Standardization and Inter-Operability, national voluntary 
consensus standards development organizations, and other interested 
parties, to develop new, and utilize existing, measurement techniques 
and testing methodologies for evaluating the performance of new 
firefighting technology, including:

        <bullet> Lpersonal protection equipment;

        <bullet> Ldevices for advance warning of extreme hazard;

        <bullet> Lequipment for enhanced vision;

        <bullet> Ldevices to locate victims, firefighters, and other 
        rescue personnel in above-ground and below-ground structures;

        <bullet> Lequipment and methods to provide information for 
        incident command, including the monitoring and reporting of 
        individual personnel welfare;

        <bullet> Lequipment and methods for training, especially for 
        virtual reality training; and

        <bullet> Lrobotics and other remote-controlled devices.

    The Administrator would also be required to evaluate the 
compatibility of new equipment and technology with existing firefighter 
technology, and support the development of new voluntary consensus 
standards through national voluntary consensus standards organizations 
for new firefighting technologies.
    For equipment for which applicable voluntary consensus standards 
have been established, the Administrator would be directed to require, 
by regulation, that equipment purchased through the Assistance to 
Firefighters Grant Program established by section 33 of the Federal 
Fire Prevention and Control Act of 1974 (15 U.S.C. 2229) meet or exceed 
applicable voluntary consensus standards. For the purposes of this 
subsection, the Administrator would have the discretion to determine 
the applicability of voluntary consensus standards to an application 
under this program.
    Authorizes appropriations of $2.2 million for FY 2004 to carry out 
this section.

Sec. 3. Coordination of response to national emergency.

    Subsection (a) would create a new section 10(b) of the Federal Fire 
Prevention and Control Act of 1974 (15 U.S.C. 2209). New subsection (b) 
would require the Administrator, after consultation with the Director 
of FEMA, to provide technical assistance and training to State and 
local fire service officials to establish nationwide and State mutual 
aid systems for dealing with national emergencies. These mutual aid 
systems would include threat assessment and equipment deployment 
strategies, and include means of collecting asset and resource 
information to provide accurate and timely data for regional 
deployment. These mutual aid systems also would have to be consistent 
with FEMA's Federal Response Plan. The Administrator, in consultation 
with the Director of FEMA, would be required to develop and make 
available to State and local fire service officials model mutual aid 
plans for both intrastate and interstate assistance.
    Subsection (b) would require the Administrator to report to the 
Senate Committee on Commerce, Science, and Transportation and the House 
of Representatives Committee on Science, within 90 days after the date 
of enactment of this Act, on the need for a strategy concerning the 
deployment of volunteers and emergency response personnel (as defined 
in section 6 of the Firefighters' Safety Study Act (15 U.S.C. 2223e)), 
including a national credentialing system, in the event of a national 
emergency.
    Subsection (c) would require the Director of FEMA to revise the 
Federal Response Plan within 180 days after the date of enactment of 
this Act to incorporate plans for responding to terrorist attacks, 
particularly in urban areas, including fire detection and suppression 
and related emergency services. The Director of FEMA would also be 
required to transmit a report to the Senate Committee on Commerce, 
Science, and Transportation and the House of Representatives Committee 
on Science on these revisions.

Sec. 4. Training.

    Subsection (a) would amend section 8(d)(1) of the Federal Fire 
Prevention and Control Act of 1974 (15 U.S.C. 2206(d)(1) to authorize 
the Superintendent of the National Fire Academy to conduct training in 
the following areas:

        (i) Lstrategies for building collapse rescue;

        (ii) Lthe use of technology in response to fires, including 
        terrorist incidents and other national emergencies;

        (iii) Lresponse, tactics, and strategies for dealing with 
        terrorist- caused national catastrophes;

        (iv) Luse of and familiarity with FEMA's Federal Response Plan;

        (v) Lleadership and strategic skills, including integrated 
        management systems operations and integrated response;

        (vi) Lapplying new technology and developing strategies and 
        tactics for fighting forest fires;

        (vii) Lintegrating terrorism response agencies into the 
        national terrorism incident response system; and

        (viii) Lresponse tactics and strategies for fighting fires at 
        United States ports, including fires on the water and aboard 
        vessels.

    Subsection (b) would authorize the Superintendent of the National 
Fire Academy to consult with other Federal, State, and local government 
officials in developing curricula for classes at the Academy.
    Subsection (c) would require the Administrator to coordinate the 
training provided under section 8(d)(1) of the Federal Fire Prevention 
and Control Act of 1974 (15 U.S.C. 2206(d)(1)) with the Attorney 
General, the Secretary of Health and Human Services, and the heads of 
other federal agencies, to ensure that such training does not duplicate 
existing courses available to fire service personnel and to establish a 
mechanism for eliminating duplicative training programs.
    Chairman Smith. The Subcommittee on Research of the 
Committee on Science will come to order, and certainly, I would 
like to welcome everyone here today for this Research 
Subcommittee hearing to review the activities of the U.S. Fire 
Administration and consider our reauthorization bill, H.R. 
2692, and also, Dave Camp's bill, H.R. 545, the Firefighting 
Research and Coordination Act.
    Created in 1974, the U.S. Fire Administration is now sort 
of closing out almost 30 years of service to the country aimed 
at reducing the Nation's fire losses through better fire 
prevention and control. During this time, the Agency has 
contributed what has been a very dramatic improvement in terms 
of reducing the loss of life and the loss of property. In 1973, 
over 12,000 citizens and 250 firefighters were lost to fire. 
Today, while our population has increased by 30 percent, the 
average number of deaths each year due to fires has decreased 
by over 60 percent. That is very impressive improvement and one 
that the U.S. Fire Administration can certainly be proud of.
    However, there are still opportunities for further 
improvements to our fire safety record. As the lead federal 
agency working with Americans--America's 26,000 fire 
departments, the U.S. Fire Administration is properly 
positioned to help make those improvements through its support 
in areas such as training, fire research, data collection and 
analysis. Additionally, three years ago, I met with Congressman 
Curt Weldon and Steny Hoyer to write the floor amendment to 
start and kick off what has turned out to be a very successful 
assistance to firefighters grants program, now also, I think an 
important part of the effort for federal encouragement. USFA 
and the firemen that volunteer their time to be grant reviewers 
for this program should be congratulated for doing such a fine 
job.
    In addition to receiving comments on the legislation before 
the Subcommittee, we will also discuss several issues not 
currently addressed in the legislation, but also of importance 
to fire services. Among these are the need for and use of 
equipment standards in fire services, U.S. Fire 
Administration's fire research program and third, the future of 
the Assistance to Firefighters grant program.
    Allow me just to comment briefly on a few of these items so 
we can begin the testimony. First of all, I want to note that I 
have put a great deal of time and effort into learning more 
about the need and use of equipment standards. I believe that 
it is widely recognized that standards for equipment and new 
technologies are very important, and I--so I compliment my 
colleague, Dave Camp from Michigan, for initiating this 
legislation. We need to encourage more standards and 
evaluations in the current environment, where it seems that 
every equipment company, especially after 9/11, is coming and 
trying to sell our fire departments and our fire services new 
technologies for the challenge that lies ahead. I have called 
the fire chiefs in Michigan and other states, who have shared 
their concerns that any sweeping mandates requiring that 
federal grant funds purchase only equipment that meets the 
standards is too prescriptive and may limit the flexibility of 
fire departments who desire guidance and information but whose 
needs may not fit perfectly with, if you will, a one size fits 
all federal mandate.
    I will also want to voice my concerns with the ongoing 
attempts to transfer the Assistance to Firefighters grant 
program out of the United States Fire Administration. I 
understand and support the notion that we should consolidate 
duplicative programs to increase efficiency of our federal 
support for emergency responders. In fact, I am pretty 
regularly one of those people working to find and eliminate 
unnecessary duplication in our federal programs. However, I can 
say for certain that the goals and objectives of the 
firefighters grant program, helping fire departments meet the 
equipment and training needs for basic day to day firefighting 
are quite different from other homeland security grant programs 
designed to better prepare first responders to defend against 
terrorism. I believe the Section 33 firefighters grant program 
should remain as it was envisioned when Congress established 
it, and it should be administered by those that best understand 
the needs of the fire services, which is the people of the 
USFA.
    I would also like to highlight that today's legislation 
contains an important provision to authorize the Administrator 
to begin an aggressive strategy to advocate the use of 
residential fire sprinklers. We know that over 80 percent of 
the deaths due to fire are caused in the home and there has 
never been a multiple death fire in a home that had functional 
sprinklers. We also know that the technology of fast-response 
sprinklers has improved greatly while the cost has decreased, 
yet less than three percent of the residences in the United 
States have sprinkler systems. I am excited that this effort by 
USFA is--if successful, could help to substantially lower the 
loss of life and property due to fire in residences.
    Finally, I would like to say a quick word about the recent 
report by the Council on Foreign Relations. It was called 
``Drastically Underfunded, Dangerously Unprepared.'' The report 
was led by former Senator Warren Rudman, who will be testifying 
in this room before the Select Homeland Security Committee 
later today. It calls for $37 billion in additional funding for 
the fire services, and while I strongly agree that there is 
more that we need to do to improve emergency responder 
preparedness, I am concerned that the findings of the report 
may have been overestimated due to some--what looks like 
inaccurate calculations. The Committee will be looking into 
this today.
    I am pleased that Administrator Paulison is here for the 
Subcommittee really for the first time since he took the reins 
at the end of 2001. Administrator Paulison may have to leave a 
bit early, so we will try to keep this thing moving to ensure 
adequate time for discussion with him this morning.
    I look forward to a productive discussion, and I want to 
welcome Dave Camp before the Subcommittee, so Dave, welcome, 
and we will ask Representative Johnson for a comment and then 
the Chairman of the full Science Committee, so--Eddie Bernice.
    [The prepared statement of Chairman Smith follows:]
               Prepared Statement of Chairman Nick Smith
    I would like to welcome everyone here today for this Research 
Subcommittee hearing to review the activities of the U.S. Fire 
Administration and consider H.R. 2692, the USFA Authorization Act of 
2003. We will also review H.R. 545, the Firefighting Research and 
Coordination Act, which has been introduced by my colleague from 
Michigan Mr. Camp.
    Created in 1974, USFA is now closing in on 30 years of service to 
the country aimed at reducing the Nation's fire losses through better 
fire prevention and control. During this time, the agency has 
contributed to what has been a very dramatic improvement in America's 
once-dismal fire safety record. In 1973, over 12,000 citizens and 250 
firefighters were lost to fire. Today, while our population has 
increased by 30 percent, the average number of deaths each year due to 
fires has decreased by over 60 percent. That is a very impressive 
improvement, and one that USFA can be proud of.
    However, there is still some opportunities for further improvements 
to our fire safety record. As the lead federal agency working with 
America's 26,000 fire departments, USFA is properly positioned to help 
make those improvements through its support in areas such as training, 
fire research, data collection and analysis. Additionally, three years 
ago, I met with Congressman Curt Weldon and Steny Hoyer to write the 
floor amendment to start the very successful Assistance to Firefighters 
grant program, now also an important part of this effort. And USFA and 
the firemen that volunteer their time to be grant reviewers for this 
program should be congratulated for doing such a fine job.
    In addition to receiving comments on the legislation before the 
Subcommittee today, we will also discuss several issues not currently 
addressed in the legislation but also of importance to the fire 
services. Among these are: (1) the need for and use of equipment 
standards in the fire services; (2) USFA's fire research program; and 
(3) the future of the Assistance to Firefighters grant program.
    Allow me to just comment briefly on a few of these items so we can 
begin the, testimony. First of all, I want to note that I have put a 
great deal of effort into learning more about the need for and use of 
equipment standards. I believe it is widely recognized that standards 
for equipment and new technologies are very useful to the fire 
services. We need to encourage more standards and evaluations are 
developed in the current environment where it seems every equipment 
company has suddenly become interested in selling their wares to fire 
departments. However, I have called fire chiefs in Michigan and other 
states who have shared their concerns that any sweeping mandates 
requiring that federal grant funds purchase only equipment that meets 
these standards is too prescriptive and may limit the flexibility of 
fire departments who desire the guidance but whose needs may not fit 
perfectly with one-size-fits-all standards.
    I also want to voice my concerns with the ongoing attempts to 
transfer the Assistance to Firefighters grant program out of USFA. I 
understand and support the notion that we should consolidate 
duplicative programs to increase efficiency of our federal support for 
emergency responders. In fact, I am regularly one of the first people 
working to find and. eliminate unnecessary duplication of effort in 
federal programs. However, I can say for certain that the goals and 
objectives of the firefighters grant program--helping fire departments 
meet equipment and training needs for basic day-to-day firefighting--
are quite different from other homeland security grant programs 
designed to better prepare first responders to defend against 
terrorism. I believe the Section 33 firefighters grant program should 
remain as it was envisioned when Congress established it, and it should 
be administered by those that best understand the needs of the fire 
services, which is the people at USFA.
    I would also like to highlight that today's legislation contains an 
important provision to authorize the Administrator to begin an 
aggressive strategy to advocate the use of residential fire sprinklers. 
We know that over 80 percent of deaths due to fire occur in the home, 
and we know that--amazingly--there has never been a multiple death fire 
in a home that had functional sprinklers. We also know that the 
technology of fast-response sprinklers has improved greatly while the 
cost has decreased, yet less than three percent of homes in the United 
States have them installed. The legislation before us today 
specifically directs USFA to develop a strategy to advocate increased 
installation of sprinklers. I am excited that this effort by USFA, if 
successful, could help to substantially lower loss of life and property 
due to fire in residences.
    Finally, I would like to say a quick word about the recent report 
by the Council on Foreign Relations, ``Drastically Underfunded, 
Dangerously Unprepared.'' The report was led by former Senator Warren 
Rudman, who will be testifying in this room before the Select Homeland 
Security Committee later today. It calls for $37 billion in additional 
funding for the fire services. While I strongly agree that there is 
more we need to do to improve emergency responder preparedness, I am 
concerned that the findings of the report may have been overestimated 
due to inaccurate calculations. The Committee will also look into this 
today.
    I am pleased that Administrator Paulison is here before the 
Subcommittee for the first time since he took over the reigns at the 
end of 2001. Administrator Paulison may have to leave a bit early, so 
we will try to keep things moving to ensure adequate time for 
discussion with him this morning.
    I look forward to a productive discussion this morning and a smooth 
markup of H.R. 2692 immediately following the hearing.
    First I want to welcome Representative Dave Camp before the 
Subcommittee. Representative Camp is a friend and colleague of mine 
from Michigan and is here to talk about his legislation, H.R. 545, that 
we will be including in the substitute amendment during the markup that 
will immediately follow this hearing.

    Ms. Johnson. Thank you very much, Mr. Chairman, and I am 
pleased to join you in welcoming our witnesses this morning to 
this hearing on legislation that Chairman Smith and I 
introduced to reauthorize activities of the U.S. Fire 
Administration.
    The Federal Fire Prevention and Control Act of 1974 was 
intended to address a serious problem affecting safety for all 
Americans. Much progress has been made as a result of this 
legislation in public education about fire safety and 
improvements in the effectiveness of fire services and in the 
wider use of home fire safety devices. Nevertheless, the United 
States still has one of the highest fire death rates among 
advanced nations, and fire deaths exceed loss of life in all 
natural disasters combined.
    The question then arises as to what is being done that is 
effective and what more ought to be done in order to make 
further progress in improving the Nation's fire safety record. 
As we begin the process of reauthorization of the 1974 Act, we 
seek the assistance of our witnesses in assessing how well 
current programs are working and whether the available 
resources are being allocated optimally.
    A matter of concern for this committee is how well the Fire 
Administration will function and the degree of attention it 
will receive in its new position as part of the Department of 
Homeland Security. Based on our experience in getting the USFA 
budget information so far this year, the visibility and 
priority the Agency is receiving in the Department is not 
encouraging. Despite repeated requests, the first time the 
Subcommittee saw any budget details for Fiscal Year 2003 
current spending plan and for Fiscal Year 2004 request was 
yesterday afternoon.
    The authorization bill Chairman Smith and I have introduced 
attempts to preserve the status of the Fire Administration. 
First, it explicitly reestablishes the Presidentially-appointed 
and Senate-approved position of Fire Administrator. It also 
includes language to ensure that the Fire Administration runs 
the FIRE Grant program. This has been a valuable program, which 
most agree has been effectively administered by the Fire 
Administration.
    One issue that I hope to explore today is the vitality of 
the Fire Administration's research activities. The current 
authorization statute includes provisions that attempt to 
reverse a withering away of support for this mission area, 
which is naturally of concern to this committee. One question 
is whether the Fire Administration and NIST are coordinating 
and cooperating effectively to develop and implement a fire 
research agenda of value to the fire services community. A 
Memorandum of Understanding regarding research activities has 
been in place between the two agencies for several years now, 
and I would like to find out more about how it has been 
working.
    Finally, I encourage our outside witnesses to provide 
recommendations regarding the specific priorities of the Fire 
Administration's program, as well--programs, as well as 
recommendations on any aspect of the Agency's policies and 
operations that could improve its overall effectiveness in 
achieving its mission objectives.
    Again, it is my pleasure to welcome all of our witnesses 
and our colleague, Congressman Camp, and I look forward to all 
of your testimony. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    I am pleased to join Chairman Smith in welcoming our witnesses this 
morning to this hearing on legislation that Chairman Smith and I 
introduced to reauthorize activities at the U.S. Fire Administration.
    The Federal Fire Prevention and Control Act of 1974 was intended to 
address a serious problem affecting the safety of all Americans. Much 
progress has been made as a result of this legislation in public 
education about fire safety, in improvements in the effectiveness of 
fire services, and in the wider use of home fire safety devices. 
Nevertheless, the United States still has one of the highest fire death 
rates among advanced nations, and fire deaths exceed loss of life in 
all natural disasters combined.
    The question then arises as to what is being done that is effective 
and what more ought to be done in order to make further progress in 
improving the Nation's fire safety record. As we begin the process of 
reauthorization of the 1974 act, we seek the assistance of our 
witnesses in assessing how well current programs are working and 
whether the available resources are being allocated optimally.
    A matter of concern for this committee is how well the Fire 
Administration will function, and the degree of attention it will 
receive, in its new position as part of the Department of Homeland 
Security. Based on our experience in getting USFA budget information so 
far this year, the visibility and priority the agency is receiving in 
the department is not encouraging. Despite repeated requests, the first 
time the Subcommittee saw any budget details for the FY 2003 current 
spending plan and for the FY 2004 request was yesterday afternoon.
    The authorization bill Chairman Smith and I have introduced 
attempt's to preserve the status of the Fire Administration. First, it 
explicitly re-establishes the Presidentially appointed and Senate 
approved position of Fire Administrator. It also includes language to 
ensure that the Fire Administration runs the FIRE grants program. This 
has been a valuable program, which most agree has been effectively 
administered by USFA.
    One issue that I hope to explore today is the vitality of USFA's 
research activities. The current authorization statute includes 
provisions that attempted to reverse a withering away of support for 
this mission area, which is naturally of concern to this committee. One 
question is whether USFA and NIST are coordinating and cooperating 
effectively to develop and implement a fire research agenda of value to 
the fire services community. A Memorandum of Understanding regarding 
research activities has been in place between the two agencies for 
several years now, and I would like to find out more about how it has 
been working.
    Finally, I encourage our outside witnesses to provide 
recommendations regarding the specific priorities of the Fire 
Administration's programs, as well as recommendations on any aspect of 
the agency's policies and operations that could improve its overall 
effectiveness in achieving its mission objectives.
    Again, it is my pleasure to welcome all of our witnesses today, and 
I look forward to your testimony.

    [The prepared statement of Mr. Sullivan follows:]
           Prepared Statement of Representative John Sullivan
    Thank you Mr. Chairman. I appreciate your calling this hearing and 
markup on, H.R. 2692, the United States Fire Administration 
Authorization Act of 2003. As a member of the Research Subcommittee on 
the House Science Committee, I am glad to be a part of this hearing to 
address the needs of our nation's Firefighters.
    The United States still has one of the worst fire safety records in 
the industrialized world. The per capita death rate remains two to 
three times that of several European nations and at least 20 percent 
higher than most developed countries. Fire remains the cause of 
approximately 3,700 deaths and $11 billion in economic damages each 
year, and every 18 seconds a fire department responds to a call 
somewhere in the United States.
    Reauthorization of the United States Fire Administration 
Authorization Act of 2003 is critical to addressing the needs of our 
nation's Firefighters through preventing and limiting fire-related 
losses through training, public education, research, and data 
collection and analysis. It authorizes appropriations to fire 
departments through the Assistance to Firefighters Grant Program. This 
appropriation will greatly assist the needs of fire departments all 
across the country.
    This reauthorization also transfers responsibility for 
administration of the Assistance to Firefighters Grant Program from the 
Director of Federal Emergency Management Agency to the United States 
Fire Administrator. This transfer will aid the development of a 
nationwide and state aid system for responding to national emergencies, 
and authorize the National Fire Academy to train Firefighters to offer 
courses to respond to acts of terrorism.
    The reauthorization of H.R. 2692 is vital to our nation's safety 
and security in a post 9/11 world and I urge its adoption by this 
subcommittee this morning.

    Chairman Smith. Thank you, Representative Johnson. The 
gentlemen from New York, the Chairman of our Full Science 
Committee, Sherry Boehlert.
    Chairman Boehlert. Thank you, Mr. Chairman. I am here to 
one, compliment you for the leadership you are demonstrating 
repeatedly in dealing with these very important programs and 
secondly, to provide tangible evidence of the Chair's 
importance that he assigns to these programs. I have been an 
unabashed champion of the fire program since I first came here 
and sat down at the bottom 21 years ago as a raw rookie, and 
since that time, I have been educated by the fire services and 
my affection for them, my appreciation for them and my 
determination to be helpful to them has increased 
exponentially. Administrator Paulison, you are going to--this 
is your maiden journey before the Subcommittee and you will 
find that we are going to be asking some questions, I am sure, 
and it is sort of a tough love scenario. We want you to 
succeed. We don't want to see cuts in programs. We want the 
Fire Academy to succeed. We don't want to see cuts in programs. 
We are determined to do what the rest of the Nation finally has 
got its mind set on doing, and that is not only appreciating 
but supporting the fire services from coast to coast. It took 
9/11 for some people to fully appreciate the fire services, but 
I can tell you, Chairman Smith and Ms. Johnson and the rest of 
us have been champions of the cause for a long, long time, and 
while you may have a new home in the Department of Homeland 
Security, that has only increased the attention you are getting 
from us, because we want to make sure you get it right, but we 
are here as partners, as facilitators. We want to work with you 
for the fire service. Thank you very much, Mr. Chairman.
    Chairman Smith. Now, for those that don't know, Sherry 
Boehlert and Curt Weldon started the Fire Caucus, so we welcome 
all of our witnesses and Congressman Camp, please proceed with 
your testimony.

                                Panel 1

STATEMENT OF HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Camp. Thank you, Mr. Chairman, and thank you, 
Congresswoman Johnson and Congressman Boehlert. I appreciate 
the opportunity to testify before the Subcommittee. The mission 
of the U.S.--United States Fire Administration has taken on 
added importance since the September 11 terrorist attacks, and 
America's firefighters are taking on heightened 
responsibilities that go beyond fighting fires. As the USFA 
locates in its new home in the Department of Homeland Security, 
its role in combating America's--and coordinating America's 
fire prevention and response activities and leadership in fire 
education must be strengthened to meet these new challenges, 
and I appreciate the inclusion of H.R 545 in the 
reauthorization measure.
    This bill was introduced in February as the Firefighting 
Research and Coordination Act, along with Senator McCain, who 
introduced a companion bill in the Senate, and this legislation 
will help address current policy questions on how the Federal 
Government can most effectively provide firefighters with the 
training and the equipment necessary to save lives, and in my 
view, the Firefighting Research and Coordination Act gives 
appropriate weight to the top fire service needs, more 
specifically, the bill supports the development of voluntary 
consensus standards for firefighting equipment and technology. 
I underscore the word voluntary. It establishes nationwide and 
state mutual aid systems for dealing with national emergencies 
and will authorize the National Fire Academy to train 
firefighters to respond to acts of terrorism and other national 
emergencies.
    The first objective of the bill focuses on establishing 
equipment and technology standards, and would allow the U.S. 
Fire Administrator, in consultation with the National Institute 
of Standards and Technology and other standards organizations, 
to develop voluntary consensus standards for evaluating the 
performance and compatibility of new firefighting technology. 
And examples include personal protection equipment, devices for 
advance warning of extreme hazard, equipment for enhanced 
vision, robotics and other remote-controlled devices, among 
others. Equipment purchased under the Assistance to 
Firefighters grant program must meet or exceed the voluntary 
consensus standards.
    Requirements for equipment to voluntary consensus standards 
aren't new, as James Shannon, President and CEO of the National 
Fire Protection Association testified in April in a hearing on 
this subject before the Senate Commerce Committee. The 
Department of Justice's Bulletproof Vest Partnership Grant 
Program requires that vests meet minimum safety and performance 
standards. In addition, the President has advocated for 
standards under the President's 2002 National Strategy for 
Homeland Security, the Department of Homeland Security will 
establish national standards for emergency response training 
and preparedness, and just recently, the Council on Foreign 
Relations released a study chaired by former Senator Warren 
Rudman that recommended Congress should require DHS and HHS to 
work with other federal agencies, state and local emergency 
responder agencies and officials, and standard-setting bodies 
from the emergency responder community to establish clearly 
defined standards and guidelines for federal, state and local 
government emergency preparedness and response in such areas as 
training, interoperable communications systems and response 
equipment. Mr. Chairman, this bill accommodates these 
recommendations, but it also allows for the USFA Administrator 
to exercise some flexibility in the rare case when a newer 
technology is introduced that may make an existing voluntary 
consensus standard irrelevant.
    The second objective of the bill is to address mutual aid 
systems. Mutual aid compacts are widely acknowledged to be an 
effective and efficient means of sharing emergency management 
resources among different jurisdictions. Federal support for 
mutual aid could be better--could better prepare states and 
localities for all types of disasters, including acts of 
terrorism. The Firefighting Research and Coordination Act 
directs the U.S. Fire Administrator, in consultation with the 
Director of FEMA, to provide technical assistance and training 
to state and local fire service officials to establish 
nationwide and state mutual aid systems for responding to 
national emergencies, and obviously September 11 is an 
important example of why those systems are important.
    And the last objective, the third objective, permits the 
Superintendent of the National Fire Academy to coordinate with 
other federal, state and local officials in developing new 
curricula at the Academy. This legislation enjoys wide support 
among many of the Nation's fire groups, including the 
Congressional Fire Service Institute, International Association 
of Fire Chiefs, International Association of Fire Fighters, 
National Volunteer Fire Council, the National Fire Protection 
Association and many other prominent fire organizations, and I 
appreciate the inclusion of this legislation in the 
reauthorization, and I thank you, Mr. Chairman, for the 
opportunity to testify before the Committee.
    [The prepared statement of Mr. Camp follows:]
             Prepared Statement of Representative Dave Camp
    Mr. Chairman, I appreciate the opportunity to testify before the 
Subcommittee. The mission of the United States Fire Administration 
(USFA) has taken on added importance since the September 11th terrorist 
attacks. America's fire fighters are taking on heightened 
responsibilities that go beyond combating fires. As the USFA moves to 
the Department of Homeland Security, its role in coordinating the 
America's fire prevention and response activities and leadership in 
fire education must be strengthened to meet new these challenges. I am 
hopeful that as the Subcommittee considers re-authorizing the USFA it 
will also examine the merits of the Firefighting Research and 
Coordination Act, H.R. 545 and include this important legislation into 
the reauthorization measure.
    Mr. Chairman, in February I introduced the Firefighting Research 
and Coordination Act. Senator McCain has introduced this bill in the 
Senate where it enjoys broad support among members of the Commerce, 
Science, and Transportation Committee. This legislation will help 
address current policy questions on how the federal government can most 
effectively provide firefighters with the training and equipment 
necessary to protect lives. In my view, the Firefighting Research and 
Coordination Act gives appropriate weight to top fire service needs. 
More specifically, the bill seeks to:

        1. LSupport the development of voluntary consensus standards 
        for firefighting equipment and technology;

        2. LEstablish nationwide and State mutual aid systems for 
        dealing with national emergencies, and;

        3. LAuthorize the National Fire Academy to train firefighters 
        to respond to acts of terrorism and other national emergencies.

    The first objective of the bill focuses on establishing equipment 
and technology standards. It would allow the U.S. Fire Administrator, 
in consultation with the National Institute of Standards and 
Technology, and other standards organizations to develop voluntary 
consensus standards for evaluating the performance and compatibility of 
new fire fighting technology. Examples of these new technologies 
include: personal protection equipment, devices for advance warning of 
extreme hazard, equipment for enhanced vision, and robotics and other 
remote-controlled devices, among others. Equipment purchased under the 
Assistance to Firefighters grant program must meet or exceed the 
voluntary consensus standards.
    Requirements for equipment to meet voluntary consensus standards 
are not new. As James Shannon, President and CEO of the National Fire 
Protection Association testified in an April 30, 2003 hearing on this 
subject before the Senate Commerce Committee, the Department of 
Justice's Bulletproof Vest Partnership Grant Program requires that 
vests meet minimum safety and performance standards. In addition, the 
President has advocated for standards. Under the President's 2002 
National Strategy for Homeland Security, the Department of Homeland 
Security will establish national standards for emergency response 
training and preparedness. And just recently, the Council on Foreign 
Relations released a study chaired by former Senator Warren Rudman, 
that recommended, ``Congress should require DHS and HHS to work with 
other federal agencies, state and local emergency responder agencies 
and officials, and standard-setting bodies from the emergency responder 
community to establish clearly defined standards and guidelines for 
federal, state, and local government emergency preparedness and 
response in such areas as training, inter-operable communication 
systems, and response equipment.'' Mr. Chairman, my bill accommodates 
these recommendations, but is also allows for the USFA Administrator to 
exercise some flexibility in the rare case when a newer technology is 
introduced that may make an existing voluntary consensus standard 
irrelevant.
    The second objective of the bill addresses mutual aid systems. 
Mutual aid compacts are widely acknowledged to be an effective and 
efficient means of sharing emergency management resources among 
different jurisdictions. Federal support for mutual aid could better 
prepare states and localities for all types of disasters, including 
acts of terrorism. The Firefighting Research and Coordination Act 
directs the U.S. Fire Administrator, in consultation with the Director 
of Federal Emergency Management Agency (FEMA), to provide technical 
assistance and training to state and local fire service officials to 
establish nationwide and state mutual aid systems for responding to 
national emergencies. An important example of why model mutual aid 
systems are important to establish comes in part, as a response to the 
September 11th attacks.
    The third objective of the Firefighting Research and Coordination 
Act permits the Superintendent of the National Fire Academy to 
coordinate with other Federal, State, and local officials in developing 
new curricula at the Academy. New training courses would focus on: 
building collapse rescue, the use of technology in response to fires; 
including terrorist incidents and other national emergencies; and 
strategies for dealing with terrorist-caused national catastrophes.
    This legislation enjoys wide support among many of this nation's 
fire groups including the Congressional Fire Services Institute, 
International Association of Fire Chiefs, International Association of 
Fire Fighters, National Volunteer Fire Council, the National Fire 
Protection Association, and many other prominent fire organizations.
    Thank you again Mr. Chairman for the opportunity to testify before 
the Subcommittee.

                               Discussion

    Chairman Smith. Turned this off, and--oh, there it goes. 
Dave, anyway, thanks for your leadership in developing this 
kind of language. I guess my question is, we--in your bill, in 
the substitute bill, we changed the mandatory, that they have 
to only use federal grant money for equipment that met the 
standards to make it more flexible, that in applying for a 
grant, that--and you have read the language that makes it a 
little more flexible. Do you support that change?
    Mr. Camp. I do, and just let me say that the standards 
really only apply to protective clothing, not to all other 
equipment, and so that--yes, I think what the Committee is 
doing is certainly supported by me and others and look forward 
to working with you to move this bill forward. Thank you.
    Chairman Smith. Representative Johnson, do you have 
questions? Mr. Chairman. Microphone is not working, let me see 
if this--here we go.
    Chairman Boehlert. Thank you for your outstanding testimony 
and leadership. I appreciate it. I would like to say that the 
Chairman, the Ranking Member and me are three people here, and 
a lot of people are wondering why the lack of more enthusiasm 
up here. It is not for lack of enthusiasm. I will tell you, 
most people look at fire programs and say, we are not going to 
take leave of our senses and do the wrong thing. They are 
convinced we are going to do the right thing, so I think this 
is one of the most important activities going on in any 
Subcommittee on the Hill today, and yet we have very sparse 
attendance, and you know, as I do, what the schedule is of all 
of our colleagues. It is rather mind-boggling on occasion, but 
the lack of attendance up here on the part of our colleagues 
does not in any way constitute a lack of interest. They just 
are confident that in Chairman Smith, the hearing is in good 
hands, and that Ms. Johnson and I are going to make sure he 
does the right things, and we want to thank you, Mr. Camp, for 
your outstanding testimony.
    Chairman Smith. I would just add to that the hearing is 
being simulcast, so it is available in--to staff and all of the 
Members of the Science Committee's offices, plus an estimated 
million people are tuning in waiting for what Administrator 
Paulison is going to tell us. Dave, thank you.
    Mr. Camp. Thank you, Mr. Chairman.
    Chairman Smith. Thanks again. If the next panel would come 
to the table.
    [PA malfunction]

                                Panel 2

    Chairman Smith. We will--our first witness will be David 
Paulison, who is the U.S. Fire Administrator and Director of 
the Preparedness Division of the Emergency Preparedness and 
Response Directorate/FEMA. Prior to his appointment as U.S. 
Fire Administrator in December of 2001, he was Chief of the 
Miami-Dade Fire Rescue Department. Administrator Paulison has 
30 years of fire and rescue experience and was selected as 
Florida's Fire Chief of the Year for--in the 1990's, so Mr. 
Paulison, please proceed with your testimony, and then we will 
go to Dr. Bement.

  STATEMENT OF R. DAVID PAULISON, U.S. FIRE ADMINISTRATOR AND 
DIRECTOR, PREPAREDNESS DIVISION OF THE EMERGENCY PREPAREDNESS & 
   RESPONSE DIRECTORATE/FEMA, DEPARTMENT OF HOMELAND SECURITY

    Mr. Paulison. Good morning, Mr. Chair and Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today on behalf of Secretary Ridge and Undersecretary Mike 
Brown.
    As you stated earlier, each year, fire injures or kills 
more Americans than the combined losses of all other natural 
disasters. Death rates by fire in the United States are among 
the highest in the industrialized world. The U.S. Fire 
Administrator's mission is to reduce loss of life and property 
because of fire and related emergencies, and it is a sobering 
challenge for us, but it is also a hopeful challenge, because 
in our opinion, most of these deaths are preventable.
    To accomplish this mission, we work with the fire service, 
other emergency responders, state and local governments, to 
better prepare our firefighters for all hazards, including acts 
of terrorism. We listen to state and local governments, and 
work with private industry to provide standardized practical 
compatible equipment that works in all possible circumstances.
    The U.S. Fire Administration recognizes the importance of 
training as a vital step toward the first responder community 
that is prepared to respond to any kind of emergency, ranging 
from a small fire or a terrorist attack involving a large 
number of victims. Emergency preparedness and response provides 
training and emergency management to our firefighters, law 
enforcement officials, emergency managers, health care workers, 
public works directors and state and local officials at our 
National Fire Academy at the Emergency Management Institute and 
most recently, the Noble Training Center in Anniston, Alabama.
    This year, you, Congress, appropriated $750 million to 
emergency preparedness and response for the Assistance to 
Firefighters Grant Program, which provides grants directly to 
fire departments to build our basic response capabilities for 
fire suppression and fire prevention. This brings our total 
funding to this grant program to a little over $1 billion since 
the program began three years ago, and the fire service is 
extremely appreciative of your support.
    These competitive grants address training, safety, 
prevention, apparatus, personal protective gear and other 
firefighting equipment needs, as well as wellness and fitness 
issues for local fire departments. We have streamlined the 
online application process for fire grants and sped up the flow 
of resources to first responders, while ensuring the funds they 
use effectively and appropriately, and in the last three years, 
we have received applications from 20,000 departments each 
year, and every year we have had this application open.
    The National Fire Academy and Emergency Management 
Institute offer a wide variety of training programs to promote 
the professional development of command level officers, 
emergency managers, emergency responders and technical staff.
    Distance learning strategies and strategic partnerships 
with state fire training organizations have helped us realize 
approximately 15 off-campus students for every one of the 
16,000 students who get to attend classes at the National 
Emergency Training Center in Emmitsburg. The National Fire 
Academy reached almost 8,000 students on campus and an 
additional 87,000 students off-campus, compared to 1995, when 
we reached a mere 15,000 students. In 2002, the Emergency 
Management Institute conducted training activities of almost 
9,000 students on campus and 185,000 students off campus 
through our independent study courses.
    We will continue to deliver fire safety messages to those 
most vulnerable to fire: the very young, those under 14, and 
elderly, those over 65 and others. And we will also continue to 
assist communities in establishing our community emergency 
response teams.
    The USFA has a long-standing working relationship with a 
variety of federal agencies. In addition, there are partners 
with the national level trade--fire trade associations such as 
the National Volunteer Fire Council, the International 
Association of Fire Chiefs, the International Association of 
Fire Fighters and the National Fire Protection Association. And 
we also reach out to academic institutions for non-fire service 
organizations to direct topics of mutual interest that affect 
our fire service. A current example is our partnership with the 
American Forest and Paper Association to examine and promote 
building performance awareness of lightweight construction 
during fires. By sharing resources and expertise, the partners 
are able to achieve much more together than we could achieve 
individually.
    I would also like to thank this committee for the 
opportunity to comment on H.R. 545. Developing new technology 
for firefighters is a critical need and has been so for a long 
time, and long before terrorism reached our shores. The 
development of measurement techniques for evaluating new 
firefighting technologies, rather than the actual development 
of technologies, is necessary, and the USFA is currently 
involved in such activities with a variety of organizations 
such as NIST, sitting next to me here.
    For example, in Fiscal Year 2003, we collaborated with NIST 
on the following projects: Structural Collapse Prediction 
Tools, Full Ensemble Test Apparatus, Thermal Protective 
Properties of Personal Protective Clothing and Personal Alert 
Safety Systems, or PASS devices.
    Reducing the loss of life and property caused by fire 
remains a significant challenge and firefighters pay a high 
price. In 2002, 102 firefighters died in the line of duty.
    Although the numbers are still way too high, as most deaths 
can be prevented, great progress is being made as you pointed 
out, Mr. Chair, to reduce the toll from fires.
    Interoperability issues are also one of the most 
significant things to overcome. It not only includes 
communication, but equipment, operations, training and other 
areas, such as communications on scene.
    Thank you, Mr. Chair, for giving me this opportunity to 
appear before you today. Your continued support is greatly 
appreciated, and I will be happy to answer any questions you or 
the Subcommittee might have.
    Thank you.
    [The prepared statement of Mr. Paulison follows:]
                Prepared Statement of R. David Paulison
    Good Morning, Mr. Chairman and Members of the Committee. My name is 
R. David Paulison. I am the Director of the Preparedness Division in 
the Emergency Preparedness and Response (EP&R) Directorate of the 
Department of Homeland Security (DHS). I appreciate the opportunity to 
appear before you today on behalf of Secretary Ridge.
    Each year, fire injures and kills more Americans than the combined 
losses of all other natural disasters. Death rates by fire in the 
United States are among the highest in the industrialized world. The 
U.S. Fire Administration's mission to reduce loss of life and property 
because of fire and related emergencies is a sobering challenge, but 
also a hopeful challenge, since most of these deaths are preventable.
    As a part of DHS, the staff works diligently to prevent these 
deaths, injuries, and the damage to property through leadership, 
advocacy, coordination and support in four basic mission areas: fire 
service training, public education and awareness, technology and 
research, and data analysis.
    To accomplish this mission, we work with the fire service, other 
emergency responders and State and local governments to better prepare 
them to respond to all hazards, including acts of terrorism. We are 
also listening to State and local governments, and working with private 
industry, to provide standardized, practical, compatible equipment that 
works in all possible circumstances. We are helping first responders 
and emergency managers practice and refine their response plans with 
partners at the local, State and federal level. We will continue to 
provide training and education, programs to prepare for the routine 
hazards as well as the emergent threats posed by WMD and terrorist 
incidents.
    Today, I will focus my remarks on the U.S. Fire Administration 
(USFA), its programs and services, how to improve the preparedness and 
effectiveness and safety of our first responders, and summarize our 
current activities and future needs.

Accomplishments

    The U.S. Fire Administration is a national leader in fire safety 
and prevention and in preparing communities to deal with fires and 
other hazards. USFA is working to support the efforts of local 
communities to reduce the number of fires and fire deaths and it 
champions federal fire protection issues and coordinates information 
about fire programs.
    In terms of our preparedness programs, we recognize the importance 
of training as a vital step toward a first responder community that is 
prepared to respond to any kind of emergency, ranging from a small fire 
to a terrorist attack involving a large number of victims. We continue 
to administer training and education programs for community leaders and 
first responders to help them prepare for and respond to emergencies 
regardless of cause or magnitude.
    EP&R also continues to provide training in emergency management to 
our firefighters, law enforcement, emergency managers, health care 
workers, public works, and state and local officials at our Emergency 
Management Institute. I would like to give you a few more details about 
these and other USFA activities.

Assistance to Firefighters Grant Program

    This year, Congress appropriated $750 million to EP&R to for the 
Assistance to Firefighters Grant program, which provides grant directly 
to fire departments to build their basic response capabilities for fire 
suppression. This brings our total funding for this grant program to a 
little over $1 billion since the program began three years ago.
    These competitive grants address training, safety, prevention, 
apparatus, personal protective gear and other firefighting equipment 
needs as well as wellness and fitness issues of local fire departments. 
We have streamlined the online application process for fire grants and 
sped up the flow of resources to first responders, while ensuring that 
the funds are used effectively and appropriately. In 2001 and again in 
2002, we received nearly 20,000 applications from fire departments 
across the country. Beginning with the 2001 grant program, the 
Emergency Education NETwork (EENET) broadcast valuable information on 
the grant programs and process. Prior to the application period in 
2003, EENET broadcast an actual applicant workshop, which was 
rebroadcast six times during the application period. We heard from many 
organizations that this eased the application process. The 2003 
application process closed on April 11 and again we received nearly 
20,000 applications. We began announcing the FY 2003 awards to 
successful applicants in June 2003.
    As you are aware, the Administration believes that this program 
should be integrated into the ongoing efforts to help the fire service 
prepare for acts of terrorism. To achieve that end in 2004, the Office 
for Domestic Preparedness in the Border Transportation and Security 
Directorate of DHS will manage the fire grants program to offer one-
stop shopping for grants in the new Department. The transfer would 
enhance coordination with other DHS grants and prioritization of 
terrorism-preparedness needs, while retaining the current practices of 
expert peer review and direct grants to departments. EP&R and the U.S. 
Fire Administration will work closely with ODP to ensure the success of 
this program.

Fire Service Training

    The National Fire Academy (NFA) and the Emergency Management 
Institute (EMI) offer a wide variety of training programs to promote 
the professional development of command level fire officers, emergency 
managers, emergency responders and technical staff. Fire departments 
will continue to receive training to respond to terrorist attacks from 
DHS in addition to training to respond to other hazards, such as 
chemical accidents, floods, or hurricanes. We will continue to develop 
policy, procedures and training for a cadre of structural firefighters 
that will be identified by states in wildland fire threat zones.
    One training program under development is to prepare regional 
Incident Management Teams (IMT) to provide support for major incidents 
prior to, or in lieu of, the arrival of a federal IMT. Simultaneously, 
we are developing the training for the Federal Incident Management 
Teams Program.
    Emergency responders, firefighters, emergency managers and others 
who have taken courses at EMI and NFA have told us these courses have 
added value to job performance and professional development. In fact, 
surveys conducted in FY 2000 and 2001 revealed that our student's 
supervisors have reported an 88 percent improvement in the student's 
job performance following training. Ninety-three percent report that 
EMI and NFA training have contributed to the student's professional 
development and almost 87 percent report that the training has improved 
the department's performance.
    State and local support of fire service training must be increased 
and the federal role is to foster that participation. In the future 
USFA will:

        <bullet> LCoordinate the exchange of training materials and 
        information among State and local fire training systems;

        <bullet> LFocus on distance learning and alternate training 
        delivery methods such as the National Incident Simulation and 
        Training network; independent study programs and computer-based 
        courses;

        <bullet> LIncrease the number of Integrated Emergency 
        Management Courses with bio-terrorism scenarios aimed at 
        bringing officials of local jurisdictions together to simulate 
        and critique their responses to terrorism-driven events;

        <bullet> LRevise training courses to include the most updated 
        information on risk management, public fire safety education 
        and emergency response;

        <bullet> LPartner with associate and bachelor degree programs 
        to align the national academic fire curricula; and

        <bullet> LInclude multiple delivery formats in future course 
        development so that the nexus of the course may be provided to 
        the field in a variety of adaptable formats.

    During 2002 and early 2003, the USFA held summit meetings in the 
EP&R regions looking for information that defined the needs of the 
first responder community in the new environment that includes WMD and 
terrorism preparation and response. Our staff also met with focus 
groups, course developers, and students at the National Emergency 
Training Center for the same purpose. Each group identified the skill 
sets necessary to conduct or support a WMD or terrorism catastrophe. 
Over 95 percent of those skills are already being taught in the 
existing curriculum and courses. The message conveyed by these 
organizations is very clear. We need to:

        <bullet> LContinue teaching the curriculum we have on hand;

        <bullet> LUpdate our course materials regularly to reflect 
        emerging issues;

        <bullet> LContinue to maximize learning opportunities for all 
        first responders.

    During the past year, the importance of working directly with the 
emergency management, fire service and EMS communities has become even 
more apparent. It is critical that we keep the most likely first 
responders to any terrorism or WMD event fully advised of information 
and circumstances that might affect their response rind their 
community's preparation. Partnering with the law enforcement community 
has enhanced our ability to deliver direct warnings that will result in 
improved operations and better outcomes.
    Distance learning strategies and strategic partnerships with state 
fire service training organizations have helped us realize 
approximately 15 additional off-campus students for every one of the 
16,000 students who get to attend classes on campus at the National 
Emergency Training Center, which is comprised of the National Fire 
Academy and the Emergency Management Institute. In FY 2002, the 
National Fire Academy reached a total of 7,860 students on campus and 
an additional 87,265 students off campus, compared to FY 1995 when that 
number was 15,000 students. In 2002, EMI conducted training activities 
for 8,968 students on campus and an additional 185,000 off campus 
through EMI independent study courses.
    The USFA's National Fire Academy work also underpins the training 
provided by accredited State Fire Training Programs. These state 
programs have over $'700 million in capital facilities and trained over 
750,000 firefighters last year.
    For the past five years, we have partnered with colleges and 
universities across the country to ensure that important fire safety 
concepts are delivered to the Nation's fire service. Our training 
programs continue to focus on those classes that align with the USFA 
Operational Objectives. We develop and deliver the type of training 
that cannot be obtained through other institutions. A curriculum review 
for the National Fire Academy curriculum is scheduled for FY 2004 and 
we expect to see those results by 2005.
    USFA continues a commitment to excellence in delivering fire 
related public education, training, research and technology, and data 
initiatives.

Public Education and Awareness

    USFA continues to deliver fire safety messages to those most 
vulnerable to fire--the very young, the elderly and others. We will 
continue to manage Emergency Response Team activities with an eye 
toward public outreach and community hazards assessment and mitigation 
efforts. USFA will assist communities in establishing Community 
Emergency Response Teams.
    We will continue to broadcast training information via the 
Emergency Education Network (EENET) twice a month to enhance State and 
local preparedness for all hazards, including terrorist incidents. 
Since 1981, EENET has broadcast more than 400 programs to meet the 
needs of all levels of emergency management, from volunteer fire 
fighters to State Emergency Management Directors.
    EENET is an effective way to get timely information or training out 
to a large audience. Coupled with other outreach and training programs, 
EENET is a good way to share information about training and education 
and to keep first responders, abreast of emerging issues.

Data Collection

    The Fire Administration continues to collect, analyze, publish and 
distribute data and information related to fire prevention, occurrence, 
control, and related fields; defines and describes the national fire 
problem; and supports State and local collection and analysis of fire 
incident data.
    This past fall, in cooperation with the National Fire Protection 
Association, the USFA completed a needs assessment of the U.S. fire 
service to gain a current understanding of problem areas and to guide 
future planning and initiatives. Combined with the ongoing national 
fire department census, we continue to develop an increasingly complete 
and accurate picture of the Nation's fire departments' capability to 
meet the challenge of expanding roles and responsibilities in response 
to all hazards, including acts of terrorism.

Research and Technology

    To maximize the impact of limited resources, USFA uses its national 
position to serve as a focal point for developing cooperative 
relationships among the diverse organizations that have a shared 
interest in developing new technologies to address fire safety and 
firefighting. USFA-supported fire research is almost without exception 
accomplished through partnerships.
    USFA has long standing working relationships with a variety of 
federal agencies including the Consumer Product Safety Commission, 
Department of Transportation, National Institute for Occupational 
Safety and Health, Department of Housing and Urban Development, and the 
National Institute of Standards and Technology. In addition, there are 
partnerships with national-level fire trade associations such as the 
National Volunteer Fire Council, the International Association of Fire 
Chiefs, the International Association of Fire Fighters, and the 
National Fire Protection Association. The USFA also reaches out to 
academic institutions and non-fire service organizations to address 
topics of mutual interest. A current example is a partnership with the 
American Forest and Paper Association to examine and promote building 
performance awareness of lightweight construction during fires. By 
sharing resources and expertise, the partners are able to achieve much 
more together than they could achieve individually.
    The data and information derived from these partnership research 
effort, have influenced the decisions of consensus standards-making 
committees on a variety of issues such as firefighting protective 
clothing, chemical protective clothing, protective clothing for urban 
search and rescue, self-contained breathing apparatus, and residential 
sprinkler systems.
    Details of USFA's research program are being shared with the DHS 
Office of Science and Technology (S&T) to identify areas of 
complementary research, inform S&T on research needs specific to the 
fire community, and explore ways of combining resources for maximum 
impact.
    USFA leverages research partnerships and technology developments to 
improve fire prevention and promote public safety. In April, the USFA 
met with the fire sprinkler community to reenergize our advocacy for 
residential fire sprinklers. I am happy to report that industry agreed 
to work with USFA on this project. The data suggests that localized 
fire suppression systems in kitchens would dramatically reduce the 
number of civilian fire deaths in this country by as much as 25 
percent. The cost to retrofit a kitchen is minimal. This is an 
excellent opportunity to reduce residential fire losses in the U.S. 
Since 40 percent of firefighter deaths in the line of duty occur at or 
en route, to residential structures, the long-term, benefit is that 
firefighter injuries and deaths will also be reduced.
    I also would like to thank the Committee for the opportunity to 
comment on H.R. 545. Developing new technology for firefighters is a 
critical need and has been so long before terrorism reached our shores. 
The development of measurement techniques for evaluating new 
firefighting technologies rather than the actual development of 
technologies is necessary and USFA is currently involved in such 
activities with a variety of organizations, including NIST.
    For example, in FY03 USFA collaborated with NIST on the following 
related projects: Structural Collapse Prediction Tools, Full Ensemble 
Test Apparatus, Thermal Protective Properties of Personal Protective 
Clothing, Personal Alert Safety Systems (PASS). These activities appear 
to fit the bill as drafted.
    It would be helpful to have the legislation identify priorities for 
the limited funds. We hope that it is not the intent of the legislation 
to limit this work to NIST. We have a very productive working 
relationship with NIST, but they are not the only partners we have for 
this type of activity. We do not believe it is in the best interest of 
the fire community to limit participation, and thus, inhibit 
creativity, efficiency and effectiveness.
    A few examples of organizations other than NIST that have 
collaborated with USFA on evaluating technology and providing 
documentation for consideration by standards-making bodies include: 
Hughes Associates and Factory Mutual--water mist technology for 
residential applications, TRI Research, Austin, TX--standards for 
chemical protective clothing; and Lawrence Livermore Labs--testing of 
SCBA for standards development. We believe that the maintenance of 
partnerships with a wide range of organizations is in the best interest 
of technology development.
    We believe the best course would be to identify, document, and, to 
the extent possible, assess the applicability of already existing 
technologies and testing methodologies.

Challenges

    Reducing the loss of life and property caused by fire remains a 
significant challenge. Each year, fire kills more than 4,000 people and 
injures more than 22,000. Annual property losses due to fire are 
estimated at nearly $10 billion. And, firefighters pay a high price. In 
2002, 102 firefighters died while on duty.
    Although the numbers are still too high as most of these deaths can 
be prevented, great progress is being made to reduce the toll from 
fires. Since 1974, when Congress passed the Federal Fire Prevention and 
Control Act (P.L. 93-498), and established the United States Fire 
Administration and its National Fire Academy--USFA has helped to reduce 
fire deaths significantly. Over the last 10 years, fires have declined 
by 16 percent. During this same period, a 22 percent decline in 
civilian deaths and a 31 percent drop in civilian injuries were also 
reported.
    USFA continues to deliver the strongest system of training with 
available funding. USFA training is designed to supplement the 
currently existing state and local accredited and staffed systems. 
These existing State and local systems have the expertise and an 
underutilized capacity that could be tapped to meet growing training 
needs.
    Since the events of 9/11, and the increased threat to our homeland 
from terrorists organizations that have access to some of the most 
deadly forms of chemical and biological agents in human history, as 
well as radiological devices of various types and descriptions, the 
ability of the U.S. Fire Service to successfully deal with such 
potential incidents remains a priority of the Department. Providing the 
U.S. Fire Service with training, equipment, planning and exercise 
support would greatly benefit the public by providing levels of 
everyday fire protection and EMS delivery unsurpassed anywhere in the 
world while at the same time dramatically improving first responder 
capabilities to deal with terrorist attacks in the homeland.
    This has been supported in two aspects by the Federal Government. 
Funds provided by Congress for the Assistance to Firefighters Grants 
Program have addressed basic fire suppression needs, while State 
Homeland Security Grants provided by the Office for Domestic 
Preparedness have supported terrorism-specific training and equipment 
purchases.
    Fire and emergency responders to the three 9-11 incidents, when the 
motive is removed, confronted aircraft crashes. It was the sheer size 
and scope of these incidents that made them horrendous. While in many 
instances the normal equipment carried by fire-rescue departments may 
be sufficient to resolve a terrorist incident, the Federal Government 
has a unique responsibility to ensure that terrorism-specialized 
equipment is available to departments, especially those at greatest 
risk of terrorism. The Department of Homeland Security is committed to 
addressing those needs.
    Interoperability issues are also one of the most significant 
matters to be overcome. This not only includes communications, but 
equipment, operations, training, and other areas.
    The current lack of national consensus standards for response to 
terrorist incidents is a critical challenge that DHS faces and we are 
working diligently to address them. Without these consensus standards, 
there can be no measurement or analysis of response to terrorist 
incidents in any quantifiable manner. These standards should be 
developed through a forum that supports a consensus-making standards 
process.

Conclusion

    Thank you, Mr. Chairman, for giving me this opportunity to appear 
before you today. Your continued support is greatly appreciated. I will 
be glad to answer any questions you and other Members of the Committee 
may have.

                    Biography for R. David Paulison
    R. David Paulison of Miami was appointed U.S. Fire Administrator in 
December 2001. As U.S. Fire Administrator, Mr. Paulison heads the U.S. 
Fire Administration, part of the Federal Emergency Management Agency 
(FEMA), and supports state and local fire service programs as well as 
implementing FEMA Director Joe M. Allbaugh's initiatives for emergency 
readiness, firefighter training and equipment. The mission of the U.S. 
Fire Administration is to reduce life and economic losses due to fire 
and related emergencies through public education, training, technology 
and data research initiatives in coordination with other federal 
agencies and in partnership with fire protection and emergency service 
communities.
    Before accepting this post, Paulison, who has 30 years of fire 
rescue services experience, had been chief of the Miami-Dade Fire 
Rescue Department since 1992. In that position, he oversaw 1,900 
personnel with a $200 million operating budget and a $70 million 
capital budget. He also oversaw the county's emergency management 
office.
    He began his career as a rescue firefighter and rose through the 
ranks to rescue lieutenant, battalion commander, district chief of 
operations, division chief, assistant chief and then deputy director 
for administration before becoming chief. His emergency management 
experience includes Hurricane Andrew and the crash of ValuJet Flight 
592.
    A native of Miami, Fla., Paulison earned a Bachelor of Arts from 
Florida Atlantic University and completed the Program for Senior 
Executives in State and Local Government at Harvard University's John 
F. Kennedy School of Government. He received the LeRoy Collins 
Distinguished Alumni Award and was inducted into the Miami-Dade 
Community College Hall of Fame. Paulison was selected as fire chief of 
the year by Florida in 1993 and holds positions in several professional 
associations. He is a certified paramedic and as fire chief, oversaw 
the Miami-Date Urban Search and Rescue Task Force. He is also past 
president of the International Association of Fire Chiefs.

    Chairman Smith. Administrator, thank you. Director Bement 
is, of course, the Director of the National Institute of 
Standards, a position he has held since December of 2001. 
Before receiving this appointment, Dr. Bement served as the 
David A. Ross Distinguished Professor of Nuclear Engineering 
and head of the School of the Nuclear Engineering at Purdue 
University. From 1989 to '95, Dr. Bement was a member of the 
U.S. National Science Board, the governing board of the 
National Science Foundation. He is also a member of the U.S. 
National Academy of Engineering.
    Welcome, Director Bement. We look forward to your 
testimony.

STATEMENT OF DR. ARDEN L. BEMENT, DIRECTOR, NATIONAL INSTITUTE 
                  OF STANDARDS AND TECHNOLOGY

    Dr. Bement. We at NIST applaud the Committee for holding 
this hearing to discuss the needs of the fire services and to 
examine H.R. 545. This very important legislation is aimed at 
getting better equipment into the hands of firefighters. To 
support this goal, there is an urgent need for performance-
based consensus standards that will lead to better performing, 
safer, reliable and cost-effective equipment for firefighters.
    NIST's mission is to support this effort through our 
expertise in measurement science and technology. NFPA [National 
Fire Protection Association] has committees that develop 
voluntary consensus standards. Many NIST staff members serve on 
these committees. Technical reports from NIST provide NFPA 
committees and NIOSH [National Institute for Occupational 
Safety and Health] with data and procedures to help advance 
national standards, based on these performance requirements.
    The Department of Homeland Security's FEMA provides grants 
to fire departments allowing firefighters to better equip and 
prepare for fires and other emergencies. However, many new 
technologies are not yet supported by consensus standards. In 
the absence of such standards, individual fire departments must 
either assess the performance of these new technologies or rely 
solely on manufacturers' information and demonstration. 
Equipment interoperability also suffers from lack of consensus 
standards. To help address these issues, NIST, the Department 
of Justice and Department of Homeland Security are working 
together to evaluate equipment for use by the Nation's first 
responder and emergency management communities.
    Less than a month ago, NIST, in partnership with DHS and 
Justice hosted a summit on interoperable communications for 
public safety. Three significant accomplishments were achieved 
during the summit. First, key interoperable--interoperability 
players were familiarized with the work being done by others. 
Second, insight was gained into where additional federal 
resources might be warranted. Finally, the summit was the first 
step in leveraging available resources to develop standards, 
approaches, products and services for the benefit of all.
    NIST's current fire research activities comprise $8.4 
million in direct appropriations and an additional $2 million 
being funded by the Fire Administration. Time only permits a 
brief summary of a few of the 20 or more projects that we are 
currently undertaking with this funding level.
    In partnership with the Fire Administration, NIST is 
performing research on passive and active fire protection 
technologies that will assure that residential fires do not 
spread beyond the room where the fire starts. Fires that 
involve more than one room greatly increase fire deaths, 
injuries and property damage. NIST is determining how 
inexpensive clay nanoparticles added to ordinary plastics will 
dramatically reduce flammability while increasing the 
properties important to manufacturing.
    Experiments at NIST have demonstrated a single sprinkler--
sprinklers can provide active fire control for kitchens, where 
many home fires start. Results of this research are being 
shared with NFPA and others.
    Portable thermal imagers are used by firefighters to 
enhance vision, to identify hot spots in cool surroundings, 
such as hidden fires, and to identify cool objects like victims 
of fire or downed firefighters. NIST is developing an apparatus 
to measure how well such thermal imaging hardware is able to 
add to vision.
    The fire alarm panel in buildings often found in the lobby 
near the main entrance is the heart of the building's fire 
information system. Until recently, even the best displays 
offered only rows of lights that indicated building zones where 
fire was detected. In many cases, it was easier to look for the 
fire than to decipher the panel display. The development of 
more powerful and affordable computer and graphic displays has 
provided an opportunity to expand the amount of information 
available at the panel. NIST created a standard set of graphic 
icons so the firefighters have only to learn the meaning of one 
set of symbols, and last fall, NFPA adopted a set of standard 
icons for fire alarm system displays. NIST is now turning its 
attention to the standards that will be needed to advance the 
wireless transmission of information from building emergency 
systems to responding firefighters even before they arrive at 
the building.
    In conclusion, NIST welcomes its role as envisaged under 
H.R. 545 to work with the Administrator in the development of 
new technologies for firefighters, and to assist the 
Administrator in assuring that new equipment meets or exceeds 
voluntary consensus standards.
    Thank you, and I would be happy to answer any of your 
questions.
    [The prepared statement of Dr. Bement follows:]
               Prepared Statement of Arden L. Bement, Jr.
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Arden Bement. I am the Director of the National Institute of Standards 
and Technology (NIST). I appreciate the opportunity to appear before 
you today. NIST conducts research that advances the Nation's 
measurement and standards infrastructure and works closely with 
national voluntary consensus standards organizations to support the 
development of consensus standards. These standards are needed by U.S. 
industry for continually improving products and services. In relation 
to fire research, NIST was given specific authority under the Fire 
Prevention and Control Act of 1974 to ``perform and support research on 
all aspects of fire with the aim of providing scientific and technical 
knowledge applicable to the prevention and control of fires.''
    Equipment for first responders is very specialized. It also 
constitutes a small market that is generally served by small 
manufacturers. Producing new equipment for the market in the absence of 
generally-accepted standards is a high-risk venture. In addition, 
standards that reflect in use conditions for determining the 
performance of firefighter equipment would assist industry in providing 
equipment that meets or exceeds firefighter needs.
    The U.S. fire service looks to the National Fire Protection 
Association (NFPA) and the National Institute for Occupational Safety 
and Health (NIOSH) as its primary sources of equipment performance 
standards and safety information. NFPA has established committees that 
consider the need for equipment performance standards and develop 
consensus standards where views of industry, the fire service, 
government and commercial laboratories, and other interested parties 
are represented. Many of the staff in the NIST Building and Fire 
Research Laboratory and the Office of Law Enforcement Standards at NIST 
are members of NFPA and serve on their standards developing committees. 
NIST provides technical assistance to NIOSH in firefighter fatality 
investigations and thermal sensor evaluation. Technical reports from 
NIST on measurement techniques, methodologies, and results, provide 
NFPA committees and NIOSH with data and procedures to help advance 
national standards. NIST developed measurement methods are also adopted 
by the American Society for Testing and Materials (ASTM) and the 
International Organization for Standardization (ISO).
    In FY 2001, FEMA established the Assistance to Firefighter's Grant 
Program following passage of the Firefighter Investment and Response 
(FIRE) ACT that provides fire departments funding through grants for 
needed equipment. These funds are now allowing firefighters to be 
better equipped and prepared for fires and other emergencies. However, 
many new technologies are not yet supported by the existence of 
consensus standards. Individual fire departments are forced to assess 
the performance of these new technologies or rely solely on 
manufacturers' information and demonstrations. Inter-operability of 
equipment also suffers from lack of consensus standards.
    To help address this issue, a Memorandum of Understanding (MOU) 
between NIST and FEMA was signed in March 2002 and establishes a 
framework for NIST to serve as a standards and measurement science 
resource for the Department of Homeland Security's FEMA in the areas of 
fire, disaster prevention, and homeland security. One of the purposes 
called out in the agreement is to aid the development of standards and 
methods to evaluate equipment for use by the Nation's first responder 
and emergency management communities. The MOU also reaffirms NIST's 
role as a critical element of our national fire strategy. Additionally, 
NIST will continue to work with other agencies and directorates of the 
Department of Homeland Security. In particular, the Under Secretary of 
Technology recently signed a Memorandum of Understanding between the 
Technology Administration and the Directorate of Science and Technology 
at the Department of Homeland Security to formalize this relationship.
    NIST is proud of its role as FEMA's science and technology resource 
and in helping the Fire Administration to improve the effectiveness and 
safety of firefighting. NIST's current research activities in this area 
comprises $8.4 million in direct appropriations with an additional $2 
million being funded by the Fire Administration. Below is a brief 
description of our current and recent activities.
    Portable thermal imagers are used by firefighters to enhance 
vision. They are used to identify hot spots in cool surroundings such 
as hidden fires in void space or over-heated fluorescent light 
ballasts. They are also used to identify cool objects, like victims of 
fire incapacitated by smoke or downed firefighters in hot surroundings 
during building search and rescue. Unfortunately, the performance of 
the sensors implemented in various products has not been measured under 
controlled conditions. Furthermore, the minimum level of important 
performance attributes, such as image contrast, have not been 
determined.
    NIST, with added funding from USFA, is developing an apparatus to 
measure how well thermal imaging hardware is able to aid vision and 
hazard sensing under a variety of realistic conditions. These 
laboratory measurements will be compared to measurements made in actual 
building fires and in large-scale fire experiments at NIST. The results 
will be used to assure that laboratory measurements are reliable 
indicators of real-world performance. Standards built on this 
foundation will provide for accurate measurement of the important 
performance attributes of firefighter equipment essential for quality, 
reliability, safe, and effective use.
    Another example of our work deals with firefighter protective 
clothing. The NFPA Standard on Protective Ensemble for Structural Fire 
Fighting (NFPA 1971) specifies the minimum design, performance, 
certification requirements, and test methods for structural firefighter 
protective ensembles. The test method for measurement of thermal 
protective performance for firefighter protective garment and the 
minimum rating required for safety is part of this NFPA standard. The 
Thermal Protective Performance (TPP) rating is determined by exposing 
dry materials to a single high intensity exposure condition that is 
often related to an extreme fire condition called flashover. This 
standard has contributed substantially to improved safety for 
firefighters, but firefighters tell us they are being burned through 
their gear under lower intensity exposures.
    During firefighting, a firefighter's protective clothing is wet 
from the outside by water spray and the inside by perspiration produced 
from strenuous activity. NIST, assisted by funding from USFA, is 
performing measurements under a range of thermal exposures and moisture 
conditions and has found that wet gear performs differently than dry 
gear with respect to burn injury protection. Manufacturers have come to 
NIST to utilize the NIST apparatus to understand more about the 
behavior of their products under conditions different from those 
assumed in the present standard. This data generated by manufacturers 
working at NIST will be used to improve protective clothing products. 
In addition, the testing approach used at NIST will be offered for 
consideration for adoption as part of the current standard. The 
apparatus is also being used in exploratory NIST research to evaluate 
the thermal protective attributes of new materials such as carbon nano-
tube composite fabrics. These measurements can help in the development 
of future protective clothing that has even better resistance to burn 
injury with reduced weight.
    NIST works hard to anticipate needs so that information is ready 
when needed by industry to advance their products and provide for 
inter-operability. Four years ago, NIST formed a consortium with 
several fire alarm hardware manufacturers. The fire alarm panel in 
buildings, often found in the lobby near the main entrance, is the 
heart of the building's fire information system. Condition measurements 
and alarms from fire detectors placed throughout a building are sent to 
this display. Until recently, even the best displays offered only rows 
of lights that indicated the zones in the building where fire was 
detected. Often a key or map was needed to interpret the lights. In 
many cases, it was easier to look for the fire than to use the 
information from the panel display.
    The development of more powerful and affordable computer and 
graphic displays has provided manufacturers with the opportunity to 
expand the display capabilities and the amount of information available 
at the panel using graphic icons. NIST created a standard set of icons 
for these panels and other fire command devices. In this way, 
firefighters would only have to learn the meaning of one set of symbols 
if they were applied on all fire service graphic displays. Last fall, 
working from documents submitted by NIST, the NFPA Technical Committee 
on Testing and Maintenance of Fire Alarm Systems adopted a set of 
standard icons for fire alarm system displays and published these in 
the 2002 Edition of National Fire Alarm Code (NFPA 1972). NIST is now 
turning its attention to the standards that will be needed to advance 
the wireless transmission and display of information contained in the 
building emergency systems to responding firefighters even before they 
arrive at a building.
    Interagency research managed by NIST is also helping to protect 
firefighters responding to terrorism incidents. Threat analyses and 
simulations have been conducted to examine chemical warfare agent 
hazard concentrations in a variety of domestic terrorist attack 
scenarios, both for respiratory and percutaneous (skin) threats. 
Results are being supplied to the NFPA committee revising the Standard 
on Protective Ensembles for Chemical/Biological Terrorism Incidents 
(NFPA 1994).
    Additionally, NIST and the Department of Homeland Security have 
begun to coordinate efforts aimed at improving the communication 
capabilities of first responders. Even though there are many 
exceptional inter-operability program efforts underway, they are being 
conducted (more or less) independently. They were established with a 
particular mission, to meet certain objectives, and to satisfy a set of 
user requirements. And they continue to operate in that vein. While 
these programs are accomplishing good things within the confines of 
their operating environment, they may not ever be able to realize the 
broader impact that comes with greater exposure and cooperation. That 
is why less than a month ago NIST's Office of Law Enforcement 
Standards, in partnership with DHS' Science and Technology Directorate 
and the National Institute of Justice, hosted a Summit on Inter-
operable Communications for Public Safety. Three significant 
accomplishments were achieved during the Summit. First, key inter-
operability players were familiarized with the work being done by 
others so that mutually-beneficial coordination and collaboration among 
the various technical programs can be established. Second, insight was 
gained into where additional federal resources might be warranted. 
Finally, the Summit was the first step in maximizing the limited 
resources that are available across all government levels so that we 
can begin to leverage program successes and use developed standards, 
approaches, products, and services for the benefit of all.
    While these activities are significant additional activities need 
to be undertaken in order to develop consensus standards for new 
firefighting technologies as described in H.R. 545.
    First, priorities must be established for the development of the 
standards. In cooperation with the USFA, NIST has hosted workshops with 
representatives of the fire service, industry, and other laboratories 
to establish priorities for fire service research. Published results of 
these workshops have helped set the current research agenda for both 
NIST and USFA. Similar workshops should be held to establish priority 
and a timeline for the development of measurement techniques, testing 
methodologies, and consensus standards.
    Second, measurement techniques and testing methodologies need to be 
developed for evaluating the performance of firefighter equipment using 
new technologies. NIST is the Nation's primary measurement laboratory. 
Our mission is to develop measurements and standards to enhance 
productivity, facilitate trade, and improve the quality of life. NIST 
has specialized laboratory facilities and staff expertise ideally 
suited for the development of these techniques and methodologies for 
many of the new firefighting technologies.
    Third, a network of private sector laboratories and facilities are 
needed where the measurement techniques and the methodologies can be 
used in a reproducible way, a necessary condition for the success of 
any standard. NIST will work with other organizations to assure that 
the measurement results are reproducible.
    Finally, NIST will work closely with national voluntary consensus 
standards organizations to support the development of the consensus 
standards. An unbiased source of technical information and data, such 
as that supplied by NIST, is critical to the success of this effort.
    I am delighted that there is recognition by this Subcommittee of 
the importance of standards development for firefighting equipment. 
NIST is the Nation's primary measurement laboratory and has always 
played a critical role in the development of effective consensus 
standards. This role was first demonstrated with our study of ``the 
problem of fire hose couplings'' during the Baltimore Fire of 1904 and 
it continues today as we support the improved safety and effectiveness 
of firefighting in America.
    Thank you and I would be happy to answer any of your questions.

                   Biography for Arden L. Bement, Jr.
    Arden L. Bement, Jr., was sworn in as the 12th director of NIST on 
December 7, 2001. Bement oversees an agency with an annual budget of 
about $812 million and an onsite research and administrative staff of 
about 3,000, complemented by a NIST-sponsored network of 2,000 locally 
managed manufacturing and business specialists serving smaller 
manufacturers across the United States. Prior to his appointment as 
NIST director, Bement served as the David A. Ross Distinguished 
Professor of Nuclear Engineering and head of the School of Nuclear 
Engineering at Purdue University. He has held appointments at Purdue 
University in the schools of Nuclear Engineering, Materials 
Engineering, and Electrical and Computer Engineering, as well as a 
courtesy appointment in the Krannert School of Management. He was 
director of the Midwest Superconductivity Consortium and the Consortium 
for the Intelligent Management of the Electrical Power Grid.
    Bement came to his position as NIST Director well versed in the 
workings of the agency, having previously served as head of the 
Visiting Committee on Advanced Technology, the agency's primary 
private-sector policy adviser; as head of the advisory committee for 
NIST's Advanced Technology Program; and on the Board of Overseers for 
the Malcolm Baldrige National Quality Award.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965).
    Along with his NIST advisory roles, Bement served as a member of 
the U.S. National Science Board, the governing board for the National 
Science Foundation, from 1989 to 1995. He also chaired the Commission 
for Engineering and Technical Studies and the National Materials 
Advisory Board of the National Research Council; was a member of the 
Space Station Utilization Advisory Subcommittee and the 
Commercialization and Technology Advisory Committee for NASA; and 
consulted for the Department of Energy's Argonne National Laboratory 
and Idaho Nuclear Energy and Environmental Laboratory.
    He has been a director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an Engineer of Metallurgy degree from the Colorado 
School of Mines, a Master's degree in Metallurgical Engineering from 
the University of Idaho, a doctorate degree in Metallurgical 
Engineering from the University of Michigan, and a honorary doctorate 
degree in Engineering from Cleveland State University. He is a member 
of the U.S. National Academy of Engineering.

                               Discussion

    Chairman Smith. Director, thank you very much. 
Administrator Paulison, it seems like the environment is--gives 
us a lot of potential to expand in the areas that we need to 
expand for greater fire safety, for greater assistance in 
helping our firefighters. After 9/11, I think there is a 
greater appreciation for the contribution that our first 
responders make to their communities, their states and their 
countries. In terms of--for lack of a better way, holding your 
own for firefighters, as FEMA and you are incorporated into 
Homeland Security, do you see dangers in performing the 
traditional role that the U.S. Fire Administration has had with 
sometimes a greater concentration and push toward protecting 
against terrorism? How do you see the compatibility of the two 
goals?
    Mr. Paulison. I think it is a concern that all of us had 
going into the Department of Homeland Security. You know, we 
know we have to pick up the terrorism piece. It is extremely 
important for this country to be prepared for this, but at the 
same time, we wanted to make sure we didn't forget what our 
core mission was.
    I think having an Office of Disaster Preparedness outside 
of EP&R in B&TS [Border and Transportation Security] right now 
helps us focus on our core mission. We continue to focus on 
firefighter safety. We have concentrated very clearly that our 
mission is to provide protection to the people that live and 
travel in this country and predominantly, those that are under 
14 and over 65, and we are continuing to focus on that. We are 
going to continue to focus on firefighter safety. We still lose 
100--over 100 firefighters every year in this country. Totally 
unacceptable. So as we moved into this Department, a huge 
Department, you know, some 200,000 employees or more, we have 
been able to keep that focus, and we have got a tremendous 
amount of support from Secretary Ridge for all hazards approach 
to--from the Fire Administration.
    Chairman Smith. Let me just mention for the record that the 
Committee staff and the Committee were disappointed that we 
didn't get your--the Administration's--your estimates of what 
is needed in terms of authorized funding until the night before 
last. I would just hope that somehow, our communication could 
be such that we could have more advance notice of that kind of 
information, and also, there is still a question in my mind on 
the Noble Training Center. Is it the Administration's 
recommendation that the Noble Training Center funding be 
transferred to the USFA?
    Mr. Paulison. Yes, sir. We are going to--the Noble Training 
Center will come under the Preparedness Division in EP&R, which 
I oversee, and that will be part of our three legs that we are 
developing. We are trying to develop a university type system, 
so we will have the Emergency Management Institute for the 
emergency management, we will have the Fire Academy for the 
fire training side and then we will have the Noble Training 
Center for the medical side, as far as training our EMS people 
in our health positions out there in dealing with biological 
disasters and chemical disasters.
    Chairman Smith. Let me--in March, you announced that you 
would--because of budget constraints, there would be a cut in 
some of the classes. With this kind of funding that is being 
recommended by the Administration, can you give us assurance 
that classes won't be cut in '04?
    Mr. Paulison. The '04 budget as it is proposed, it gives 
full funding for the Fire Academy and all of the classes that 
we had scheduled will be delivered.
    Chairman Smith. Dr. Bement, the problem of communications 
has been identified as a major challenge to the ability of fire 
departments to effectively communicate and respond to 
emergencies. Is this problem being addressed, at least in part, 
through the development of standards?
    Dr. Bement. Yes, sir, it is. We are working closely with 
NTIA [National Telecommunications and Information 
Administration] and Commerce in terms of examining spectrum 
allocation, but also, in looking at the future of wireless and 
broadband communication. We are also looking at new 
technologies through spectrum switching and through software-
defined radio and other new developments that will allow a 
higher level of interoperability among different wavelengths of 
communication equipment, not only handheld but also land mobile 
radio systems.
    I had my eyes open when I attended the conference just--the 
summit just a few days ago on communication interoperability. 
The great complexity that currently exists in this area, 
because over the years, we have developed so many different 
approaches to emergency response and communication, but I am 
very much encouraged that with the effort that we are taking 
now and the level of cooperation that is now recognized that is 
going to be needed, that we are going to make good progress but 
it is going to take time. It will probably take another five or 
10 years before we have the system fully interoperable.
    Chairman Smith. My time has expired. Maybe we will have 
time for a second round. Representative Cardoza.
    Mr. Cardoza. Thank you, Mr. Chairman. Mr. Paulison, Mr. 
Bement. Do you believe that firefighting and fire protection 
equipment obtained under the FIRE Grants program should conform 
to consensus standards where such standards exist, and should 
this be an explicit requirement of the program?
    Mr. Paulison. The consensus standards apply mostly to 
protective gear, so the general answer is yes. However, what we 
don't want to do is to cut off any new technologies out there, 
so if, you know, if we give preference to fire departments that 
have included that in their application, that the particular 
equipment they are buying does not meet particular consensus 
standards, such as NFPA or OSHA [Occupational Safety and Health 
Administration] or other ones, and then they get preference in 
that, but at the same time, you know, we need to give a little 
bit of leeway, if there are new technologies out there. Like 
Mr. Chairman here mentioned, that we need to look at those very 
closely.
    Mr. Cardoza. Mr. Paulison, the blue ribbon panel that 
reviewed USFA in 1998 recommended a $10 million per year 
increase in research activities. What is the current funding 
level for research activities? Do you believe that these 
resources are adequate?
    Mr. Paulison. Well, right now, we give $2 million to NIST 
to do the research we talked about earlier, and we also work 
with other agencies that we don't necessarily fund, but we 
partner with, such as the Maryland Fire Rescue Institute at the 
University of Maryland.
    Mr. Cardoza. My alma mater, sir, that is a good school.
    Mr. Paulison. Is it really?
    Mr. Cardoza. Yes.
    Mr. Paulison. By the way, they are doing an excellent job 
in doing research into some of these technologies that we are 
talking about. And there are also private agencies that are 
doing some--Motorola is working very significantly now since 
September 11 of 2001 on interoperability issues. Other 
companies are stepping up to the plate to recognize that. So it 
allows to--although the dollars are not necessarily what was 
recommended by the blue ribbon panel, we are able to leverage 
those relationships to make sure the research is being done, 
and we are getting--we are making a significant headway into 
getting some of these equipments out on the street.
    Mr. Cardoza. Thank you.
    Chairman Smith. This is one of the most high tech advanced 
offices we were to--or hearing rooms, we were told.
    Mr. Paulison. Maybe we need some technological research and 
standards.
    Chairman Smith. I guess.
    Mr. Paulison. Standards.
    Chairman Smith. I guess they resolved the communications 
issue.
    Mr. Gingrey. You have got to have this on the Science 
Committee, of course. Thank you, Mr. Chairman. Is that not 
working? Musical chairs, here. Thank you, Mr. Chairman, and 
thank you, Mr. Paulison and Dr. Bement for being here this 
morning and giving your testimony. Administrator Paulison, 
according to the USFA's strategic plan, the 10 year goal is to 
reduce America's loss of life by fire to 30 percent with the 
1998 national fire data statistics used as the baseline. It is 
through, of course, targeting of high-risk groups such as 
children, the elderly and firefighters. At the halfway point in 
working toward the 10 year goal, do you believe the United 
States Fire Administration and the country is on a glide path 
to achieve the goal, and if not, what else must happen to 
realize this reduction in loss of life?
    Mr. Paulison. The reduction in loss of life for our 
citizens, our residents and our firefighters is not where I 
want it to be. We are still losing 4,000 people a year to 
fires, and like the Chairman pointed out, 80 percent of those 
are in their homes, and we are still losing over 100 
firefighters a year, so there are things we have to do. One of 
the things we are doing is we are going to start putting a big, 
major focus on the residential sprinkling. We have met with the 
sprinkler industry. They have been opposed to what we call 
localized sprinkler systems, where instead of sprinkling the 
whole house, we are recommending we target those areas that we 
know we have the fires in: our kitchens, utility rooms, 
garages, those areas where our fires are most prevalent. And in 
work with builders and developers to start sprinkling some of 
these--onto those--in those areas. It is the minimal cost, and 
we think it will greatly reduce the loss of life.
    Smoke alarms that we put in some 15 years ago have been 
the--in my opinion, the big difference between the 8,000 or 
9,000 people we lost back in the '60's and '70's to down to 
4,000, but now, we have come to a plateau and we need to move 
on with that, and I think sprinklers are the next move.
    Public education plays heavily into that, and also with 
firefighters. Most of our firefighter deaths are heart attacks 
and vehicle accidents, two of the most preventable things that 
we have. So we are focusing on driver training and also, we are 
focusing on wellness and fitness in the fire station itself and 
with the firefighters. So we think we are--we have got the 
answers to move to the next level to see a decline in these 
deaths.
    Mr. Gingrey. Well, it would seem to me, of course, that you 
are already doing a lot in regard to physical fitness, and when 
I look at--you can almost spot a firefighter out of uniform in 
an instant. They look like--look pretty good. Pretty good 
physical specimens, so they are obviously working out and 
spending some valuable time doing that, and I think that is 
good. You mentioned, of course, putting in alarm systems and 
maybe over a few years, bringing the loss down from 9,000 to 
4,000, and I am pleasantly surprised at that. I would think, 
though, that getting builders to do that would be a lot easier 
and a lot cheaper than getting them to agree to put in 
sprinkler systems even in targeted areas. Although I 
certainly--you know, it makes sense to me thinking about that 
that that would certainly save lives, but you indicated maybe 
that the costs wouldn't be that significant, but it seemed like 
to me would be a much more substantial cost than just putting 
in an alarm system.
    Mr. Paulison. Well, it is more expensive than just 
putting--we need the alarm system also. The smoke alarms are 
what alerts our people that there is a fire in the house, but 
at the same time, there needs to be something in the home to 
contain that fire until they can get safely out of the 
building. The focus of residential sprinklers is not 
necessarily to put the fire out, but to contain the fire. That 
is different than our commercial occupancies. Our commercial 
occupancies, a sprinkler system is designed to put the fire 
out, because they may be closed, you know, overnight, but our 
goal with residential sprinklers is to get people out of the 
home. You mentioned--I just recently built a home, and tried to 
get the builder to put sprinklers in there. Even though I was 
willing to pay for it, the builder refused to do that, because 
it--their--his impression was it would slow down the closing on 
the house, which slows down their draws from the bank, so we 
have to overcome that, and we are going to be meeting with 
builders. We have already met with the sprinkler industry on 
several occasions. They have agreed to get on board with us to 
promote these residential sprinklers, and even retrofit 
existing homes with the localized sprinkler system.
    Mr. Gingrey. Mr. Chairman, I had a second question. Do I 
need to wait for the second round, or do we have--it is widely 
agreed that in addition to saving lives, lower property losses 
are a significant secondary benefit to increased use of 
residential sprinklers. Approximately how many years does it 
take before these sprinklers pay for themselves in terms of 
potential savings, and do insurance companies offer reduced 
policy premiums for those who install sprinklers? If they 
don't, how can USFA reach out to the insurance companies and 
encourage them to do the premium reductions?
    Mr. Paulison. We haven't seen insurance companies willing 
to take that step yet, and that is one of our goals, along with 
getting the sprinkler companies on board with our philosophy, 
is to also work with insurance companies to see if we can do--
we can get them to start reducing the premiums. If--for those 
homes that are sprinkled, if something as simple as putting in 
a localized fire sprinkler system, let us say in a--just put a 
sprinkler head in a kitchen in an existing home, is somewhere 
between $500 and $1,000, it is just a simple plumbing issue, it 
is not a major issue, a new existing home, it would depend on 
the locality and the type of laws that they have, but the cost 
of amortizing that sprinkler system over the life of that home 
is insignificant, and we think that the value is way out--
outweighs any cost that may be incurred.
    Mr. Gingrey. Thank you, Mr. Paulison, and thank you, Mr. 
Chairman.
    Chairman Smith. Thank you, sir. Representative Lofgren.
    Ms. Lofgren. Thank you. First, let me apologize for being 
late. I was speaking to a whole room full of the top science 
and math graduates in the country, who were--they were just--
cheers you up just to see these kids and--just down the way. I 
am interested in how we are developing standards for new 
firefighting technologies, and also, what challenges are 
present in the standardization of firefighting equipment and 
technologies that exist today. I remember the Oakland fire. I 
am sure that is legendary in firefighting worlds, and I was on 
the Board of Supervisors in Santa Clara County when the Oakland 
fire broke out, and my cohort, Don Perata, was on the Board of 
Supervisors in Alameda County. I later found out when I called 
Don at home on that Sunday that that was the first 
communication between an outside agency and Alameda County, and 
when we sent equipment up, we couldn't connect our hoses to 
their hydrants, because they were not the same size, and it did 
contribute to the conflagration. So that may not be the main 
issue that we are dealing with, but I am wondering if you had 
thoughts and advice in that arena. Would you turn on the mike?
    Mr. Paulison. I did.
    Ms. Lofgren. Very good.
    Mr. Paulison. The equipment interoperability and--you were 
singing my song--I appreciate you asking that question--is a 
significant issue. We keep talking about interoperability and 
people focus on radio interoperability, which is an issue we 
are trying to deal with. But the equipment interoperability is 
as significant as the interoperability of our radio systems. 
You know, I am from Miami, I am a scuba diver. I can take my 
diving regulator anywhere in the world, and rent a scuba tank 
and it always fits, but I can't take an air bottle off of one 
air pack and put it on a different brand, both made here in the 
United States. The--I can rent an air compressor in Miami and 
take it to Seattle and rent a jackhammer, it always fits, but 
our hydraulic tools, our jaws of life and those types of 
equipment are totally incompatible from one brand to another, 
and the construction industry has figured it out, you can go to 
a Home Depot and rent--and buy saw blades and they will fit any 
saw you have, but the fire industry is totally incompatible, 
and I have been meeting with the Fire Equipment Manufacturers 
Association. I met with them four times, and they recognized 
that we have to change this, and they are working diligently to 
do that. We have already got some manufacturers that--for 
instance, airbag manufacturers are very close--or lifting bags, 
to lift cars off people--and have already agreed that they were 
going to start changing their fittings to where they are all 
the same. It is just a small step, but it is a big step. The 
International Association of Fire Chiefs was created in the 
late 1800's to resolve the hose thread differences, and here we 
are 150 years later and we are worse off than we were back 
then.
    Ms. Lofgren. Isn't there a role to play for the Federal 
Government in this area? I mean, I don't know what the 
standards ought to be, but NIST actually is a standard-setting 
body.
    Mr. Paulison. Yes.
    Ms. Lofgren. Shouldn't we ask them to work with the 
firefighting world and develop some standards to get this 
moving along?
    Mr. Paulison. Absolutely. The--part of the problem is us in 
the fire service ourselves. Different--for particularly--for 
instance, the hose thread standards is the most significant. 
New York--the City of New York has its own hose threads. Kansas 
City has its own hose threads that they designed themselves and 
make, and we perpetuate the problem, because we are unwilling 
to make those changes, but other areas are--definitely are 
resolvable, and Doctor, do you want to address that?
    Dr. Bement. Well, I am glad you brought it up, 
Representative Lofgren, because this is what got us involved in 
fire standards in the first place. It was the Baltimore fire of 
1903, where different responding fire companies couldn't 
participate because their hoses wouldn't fit the hydrants. It 
is surprising that even today, almost 100 years--almost exactly 
100 years later, we still have similar problems. We deal with 
interoperability issues not only in protective equipment and 
hydrants and so forth, but--in almost every area, 
communications.
    By working closely with standard development organizations 
in order to develop standards in this area, this is what 
consensus standards are all about, we work very closely with 
stakeholders, including the U.S. Fire Administration, to hold 
workshops to identify performance-based standards, because if 
standards are too prescriptive, they add only cost to the 
equipment. And through our testing efforts, our research 
efforts, our guide--issuing technical guidelines, our work with 
the Fire Administration, in putting out newsletters, like 
fire.gov on the Internet, which informs the fire community of 
technical developments throughout the world, we are trying to 
get more agreement on what these performance standards should 
be.
    I should say, incidentally, in this area of flexibility, 
the test work that we do at NIST and the research that we do at 
NIST informs not only the standard development organizations 
but the fire community at large in their procurement decisions. 
We had guests just two days ago from local fire chiefs and the 
National Association of State Fire Marshals visiting NIST so 
they could identify the test beds that we currently have that 
would help them evaluate some of their procurement decisions 
that they have to make in the absence of standards, and so much 
equipment is coming on the market now, and technology is 
flourishing more rapidly than the standards development effort, 
so we have worked with ANSI [American National Standards 
Institute] in establishing the Homeland Security Standards 
Panel to work with the standard development organizations to 
see how we can accelerate the effort in bringing new standards 
to bear on some of these issues.
    Chairman Smith. The--are you finished?
    Ms. Lofgren. My time has expired. I appreciate the 
Chairman's----
    Chairman Smith. The gentleman from Missouri, Congressman 
Akin.
    [PA malfunction]
    Mr. Akin. St. Louis area, of our first responders, fire 
folks, the ambulance, as well as some of the local police and--
okay, we have got it. I asked them, I don't want to know your 
second and third and fourth priority, what is your number one 
priority, in terms of what we ought to be looking at, and there 
was a complete consensus that it was the interoperability of 
the communication systems. They said that is the thing that 
they really--you know, we are--our assessment was for small 
kinds of incidents, you know, some truck of chemicals that goes 
off the highway or something, we are--we handle those kinds of 
things very well.
    Our concern was the larger scale kinds of deal where you 
have got, you know, 50 different police districts within a 
particular metropolitan area, you may go across the Mississippi 
River to Illinois, you have got different states, different 
governments. How do you coordinate those kinds of things? They 
said their big concern was communications. Now, this new 
technology that--is it Nextel is advertising, that walkie-
talkie type thing, does that answer those problems, or is that 
the potential--or if it doesn't, what still has to be done, 
because their first estimate to us was, oh, all we need is a 
couple hundred million dollars, and of course we all kind of 
rolled our eyes at that, but the next thing we saw were those 
vans that have the different antennas and you can--with a 
computer, you can hook up your Wal-Mart little $30 walkie-
talkie with a police radio with a military, so you could 
interlock those things.
    What do you see in that area and where are we?
    Mr. Paulison. It is--the radio communications, the 
interoperability is significant. We have fire departments out 
there with low band radios with UHF, VHF, 800 megahertz, and 
now, the new frequency, 700 megahertz coming on the board, and 
they don't communicate with each other.
    There are interface boxes like you mentioned, and the one 
particular van you saw, that allows that to be set up on a 
particular incident to deal with that. I think--I see that as a 
short-term solution. We have--between the Department of 
Homeland Security and the COPS program in Justice, I think it 
is right around $100 million, we are going to be issuing in 
these next couple months, on a competitive basis to cities 
around the country, and to look at best practices, where they 
are--these companies, or these cities that are awarded these 
grants will set up their interoperable communications system 
and then we can look at those and offer those as best 
practices, or not if they don't work, to the different cities 
to deal with this.
    The--I just had a meeting with one of the major radio 
manufacturers, and they perceive the answer to this is a radio 
that will adapt to whatever system it goes into. So if you have 
a base for a handheld radio, and you are dispatched into a 
territory on a different system, if you have a--let us say UHF, 
with a 450 megahertz and you go into a system on an 800, the 
radio could adapt to that new system. And I believe if they can 
resolve that technical issue inside those radios, that will be 
the answer.
    What we don't want, though, is every radio able to talk to 
every radio. It overwhelms the system. We need every radio to 
be able to communicate with the command post, because we are 
trying to set up unified command systems throughout the 
country, so that--I think that is the answer down the road.
    I don't know, Dr. Bement, if you have any response to that, 
too.
    Dr. Bement. I think Dr. Paulison--or Mr. Paulison stated it 
very clearly, it is not just the interoperability of the 
communication system, but it is also interoperability of the 
communication system with the decision support system, the 
command system itself, and in many cases, it is not only how 
you transmit voice, but how you transmit data, and the cross-
band switching issues in going from band to band and developing 
interoperability is a very daunting challenge.
    More than that, in many cases, some of the 800 megahertz 
systems don't communicate inside buildings very well, 
especially buildings that are very well shielded, so in some 
cases, that is going to take ancillary equipment like co-ax 
repeaters built into the building so that you can transmit 
effectively from inside the building to outside the building 
and actually engage in the fire operation itself. So this is a 
very big menu of things that we have to address, and we are 
addressing it in every one of these areas. In fact, the 
Advanced Technology Program at NIST is funding some of this 
work in cross-band switching and also XML and being able to 
exchange data in disparate systems, and so we feel that NIST is 
very much engaged.
    Mr. Akin. Is there--to follow on, is there any use--I 
understand there was a big fire situation last summer out West 
where they used those walkie-talkie type handheld--they were 
actually cell phones, you know, essentially.
    Dr. Bement. Yes.
    Mr. Akin. And that that was supposed to be the backup 
system and the firefighters all switched over to the backup 
because they like it so well.
    Dr. Bement. Well, we have actually developed a test bed at 
NIST, not only to use these handheld phones, but also to use 
PDAs that will operate in an interoperable mode, and that 
system is up and operating, and we are using it to evaluate 
different products that are coming into the marketplace that 
will help serve this need, but I have to say that there is not 
a secure component yet in this form of communications, and as 
Administrator Paulison indicated, in some cases, you want that 
security level built in to the system as well, and that is 
where we are focusing our attention at the present time.
    Mr. Akin. Is there any one agency or person that is 
responsible for basically dealing with this problem and 
coordinating a solution, or is this something that you have got 
different agencies and different people stumbling over 
themselves on?
    Dr. Bement. Well, I mentioned the summit that we had just a 
couple weeks ago that brought together federal agencies, state 
agencies, the firefighting community, National Laboratories, so 
NIST is trying to bring this community together. Through our 
Office of Law Enforcement Standards, we do serve as a 
coordinating arm for the Office of Disaster Preparedness of the 
Science and Technology Directorate in the Department of 
Homeland Security, and the National Institute of Justice in 
trying to coordinate investments in research and development in 
this area, and to try and coordinate the technical approach to 
developing standards in this area.
    Mr. Akin. I think what I heard you say is no. I said, I 
mean, is there one person that is tasked with the 
responsibility, and I think--I understand you have got to talk 
to a lot of different people and sort of develop what you are 
going to do, but is there somebody who is spearheading that, or 
is it really something that that responsibility currently is on 
an organization chart, or is that being shared?
    Dr. Bement. There is a committee or a group inside of the 
Department of Homeland Security called SAFECOM that brings all 
of the federal agencies together to work on the issue together, 
and that--they are the ones that are coordinating the effort, 
and make sure the money is being spent.
    Mr. Akin. So if there is any----
    Chairman Smith. I am going to have to interrupt you. The 
Administrator is going to have to leave in a few minutes, and 
we have two more questioners, Congressman, so I apologize, but 
I will now call on Representative Johnson.
    Ms. Johnson. Thank you very much. This question will go to 
both witnesses. A Memorandum of Understanding is now in place 
between NIST and the Fire Administration that calls for one, 
establishing points of contact in each agency to be responsible 
for carrying out the purpose of the Memorandum of 
Understanding, and two, jointly drafting an annual fire 
research and technology development agenda with input from the 
research community, fire services representatives and other end 
users, and three, holding bimonthly meetings with participation 
by representatives of the fire services industry and other 
interested groups for the coordination and implementation of 
the fire research plan, and four, disseminating the results of 
the fire research program more broadly. And I want to ask each 
of you three questions, one, are all of these components of the 
agreement being carried out, and two, are you both satisfied 
with the process, and in particular, are you satisfied that a 
research agenda is being developed that has priorities 
acceptable to the fire services community and has an 
appropriate balance between long-term research and near-term 
development, and the final question is, is there an adequate 
coordination in developing research agendas among the federal 
agencies that support fire research?
    Dr. Bement. I can address part of that list of questions. 
Yes, there has been ongoing consultation between NIST and the 
U.S. Fire Administration, as well as the Directorate for 
Science and Technology on the research and development agenda. 
That has been ongoing. It existed even before the Memorandum of 
Understanding was signed.
    In addition to that, we have sponsored joint workshops in 
addressing some of the issues having to do not only with 
technical needs, but also performance-based standards. That is 
ongoing. That continues. NIST has established a technical 
liaison with the Fire Academy at Emmitsburg, and we continue to 
work with them on agenda development.
    And of course, there is the direct support from the Fire 
Administration for the research that is currently going on at 
NIST.
    So in those areas, this is a very active engagement.
    Mr. Paulison. The other player we need to bring in, also, 
which we are doing now, is the Science and Technology Division 
or Directorate inside of Homeland Security--Department of 
Homeland Security, and we are doing that. They are very 
interested in getting involved in our research and helping fund 
some of those things also. So they will be a player with us 
also, along with NIST and other groups out there. We have a lot 
of work to do. There is no question about it. But I am 
comfortable that we are on the right road to do this research.
    Ms. Johnson. Thank you very much. Mr. Paulison, what is the 
budget for the National Fire Incident Reporting System for 
Fiscal Year 2003, and what is requested for 2004?
    [PA malfunction]
    Mr. Paulison. Our total budget is $56 million, I believe, 
this year, to run that whole program at Emmitsburg. But I will 
get those, I will break those out for you. I just don't have it 
at my fingertips right now. I can get that to you tomorrow, or 
even this afternoon.\1\
---------------------------------------------------------------------------
    \1\ The National Fire Incident Reporting System's FY03 budget is $1 
million and the FY04 budget is currently undetermined.
---------------------------------------------------------------------------
    Ms. Johnson. Thank you very much. Thank you.
    [PA malfunction]
    Chairman Smith. The--we are delighted that the Vice 
Chairman of the full Science Committee has joined us, 
Representative Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. I apologize for 
being late. I don't have any specific questions. I think the 
questions I was going to ask have pretty well been answered, 
but if my colleague from Missouri would like, I would be happy 
to yield him a few minutes of my time.
    Mr. Akin. These buttons are hard things to learn to work. I 
would just--the concern I have is, is having been in some big 
corporations and all, sometimes if you have a responsibility 
that it isn't really clear who is doing what that you end up 
with a whole lot of people doing a lot of different things, and 
it gets kind of scrambled, and my concern is particularly in 
the communications area, where our people back in the St. Louis 
area say that is their number one priority, do we have somebody 
that--not necessarily that they have to be made a czar or 
something, but is there a good consensus that one group is 
going to come up with at least a good workable solution?
    Mr. Paulison. The group that I mentioned earlier is--that 
is their task, to make sure that happens. The--but I don't want 
to mislead you, because is one group going to come up with the 
answer? I don't know. There is a lot of people working on the 
communications issue, a lot of people in private industry are 
very serious about this, so the answer may come from them, but 
as far as the Federal Government is concerned, we have one 
group that is focusing our dollars and our attention to make 
sure we are going in the right direction.
    Mr. Akin. Thank you very much.
    Chairman Smith. The--just a quick last question. The Fire 
Chief in Jackson, Michigan, in my district, has been trying to 
get the state legislature to require that mobile homes be built 
with a sprinkler system inside those mobile homes. Is that 
something that should be considered by the state or Federal 
Government?
    [PA malfunction]
    Mr. Paulison. Firefighter for 30 years, I can tell you that 
when we respond to a mobile home fire, seldom do we get there 
and put the fire out. It is usually--the mobile home is burnt 
to the ground before we arrive. If we sprinkle anything, from 
the day they built it, it--mobile homes is extremely important.
    Chairman Smith. And Administrator Paulison, if there is 
anything else, we understand you have got a commitment at 11. I 
hope it is within 10 minutes of here. If you make it, and with 
that, you are certainly--we thank you both. If you have any 
additional advice, please inform this committee on the Noble 
Training, whether we should include that in this bill, that $8 
million, as far as being within the U.S. Fire Administration, 
or whether it should be a separate authorization for Homeland 
Security.
    Let us know your recommendation on that.
    Mr. Paulison. Yes. Yes, sir, and thank you for your 
support, too, and if there is any other questions that we have 
missed, you know, if you would just give those to us, we will 
get them right back to you in writing.
    Chairman Smith. Okay. Thank you.
    Mr. Paulison. Thank you very much.
    Chairman Smith. Again, thank you both for your presence 
today. If we could start Panel 3.
    [PA malfunction]

                                Panel 3

    Chairman Smith. Dr. Dennis Compton is the immediate past 
Chair of the Board for International Fire Service Training 
Association. Chief Compton has served for over 32 years in the 
fire service, 27 years with the Phoenix Fire Department, five 
years as the Mesa Chief and he was selected as a charter member 
of the Arizona Fire Service Hall of Fame and recently received 
the Congressional Fire Service Institute, the CFSI 2003 Mason 
Langford National Fire Service Leadership Award, so Chief, 
congratulations. Thank you for sharing some of your advice and 
wisdom today and please proceed with your testimony.
    [PA malfunction]
    Chairman Smith. I think, I am not sure but--whether it is a 
long push on the button, or a short push.

 STATEMENT OF DENNIS COMPTON, IMMEDIATE PAST CHAIR, BOARD FOR 
      THE INTERNATIONAL FIRE SERVICE TRAINING ASSOCIATION

    Mr. Compton. Members of the House Research Subcommittee, my 
name is Chief Dennis Compton of Mesa, Arizona. I am honored to 
testify before the House Research Subcommittee on issues of 
great importance to you and our nation's one million career and 
volunteer fire and emergency response personnel. I have a full 
statement I have submitted for the record.
    Chairman Smith. Without objection, all full statements will 
be included in the record.
    Mr. Compton. For 32 years, I have been a firefighter, 27 
years with the Phoenix, Arizona Fire Department and the last 
five as Chief of Mesa, Arizona Fire Department. Although 
retired from Mesa, I continue to remain very active, serving as 
a leader in many national fire service organizations, including 
the International Fire Service Training Association and the 
Congressional Fire Services Institute's National Advisory 
Committee.
    I have been asked to present my views on a number of 
important issues that this subcommittee is addressing. First, 
the reauthorization of the United States Fire Administration. 
The USFA is doing an excellent job serving its core mission, in 
addition to assuming new responsibilities in the area of 
terrorism training. Its Administrator, Chief David Paulison, is 
a widely respected 30 year veteran of the fire service who 
understands what is needed by our firefighters and how the 
Federal Government can respond to those needs. The United 
States Fire Administration is the lone federal agency tasked 
with reducing the Nation's loss of life and property due to 
fire.
    I urge Congress and this subcommittee to never allow the 
USFA to lose its identity. The U.S. Fire Administrator should 
maintain a prominent presence within the Department of Homeland 
Security. I also strongly believe that the Fire Administrator 
should remain a Presidential appointed position confirmed by 
the Senate.
    I also fully support developing a national residential fire 
sprinkler strategy. In fact, my home is fully sprinklered. The 
combination of fire sprinklers and smoke alarms installed in 
homes can significantly reduce the number of lives lost from 
fires each year in this nation.
    Regarding the Firefighting Research and Coordination Act, a 
key element of that Act, introduced by my Senator, John McCain 
and Congressman Dave Camp, addresses the advent of firefighting 
technology and the development of new standards to measure 
their performance as well as calling for coordination of 
response to national emergencies, including training and 
credentialing. Credentialing of emergency responders is 
critical to the successful management of national emergencies. 
It is important that existing fire service certification 
systems be incorporated into any national program to improve 
emergency management.
    This legislation has received the support of more than 40 
national fire organizations, composing the Congressional Fire 
Service Institute's National Advisory Committee. Nothing is 
more critical to our mission than continuing to fund the FIRE 
Act grant program. The FIRE Act is directed at addressing basic 
needs. According to the survey recently completed by the USFA 
and the NFPA, data reveals that many fire departments are 
understaffed and in need of basic equipment, such as turnout 
gear, radio communications, breathing apparatus.
    The management of the FIRE Act grant program by the U.S. 
Fire Administration has been an incredible success, and the 
fire service is concerned that transferring that responsibility 
to the Office of Domestic Preparedness will dilute the 
effectiveness of that program.
    Unlike grant programs administered by ODP, the FIRE Act 
grant program sends money directly to local fire departments. 
ODP's focus is on state terrorism grants. While the act focuses 
on basic, everyday response needs, using the states to direct 
the flow of dollars, which is consistent with ODP grant 
programs, has never proven to be effective for the fire 
service, and it is primarily because the fire service lacks any 
centralized representation at the state level in any of the 
states.
    The Council on Foreign Relations recently issued a report 
titled ``Emergency Responders: Drastically Underfunded, 
Dangerously Unprepared.'' The report outlined a number of 
concerns regarding our nation's preparedness for potential 
terrorist attacks. I was intrigued by their assessment of how 
slowly federal funds are being distributed and spent at the 
state level.
    Conversely, the United States Fire Administration has been 
very effective in distributing FIRE Act funds. Should the 
Federal Government be spending five times the current amount, 
as the report recommends? It is hard to say. However, I know 
that given the challenges facing local fire departments, we 
need to spend more. Through the FIRE Act, we need to bring all 
fire departments up to a baseline level of training and 
equipment. Through pending SAFER legislation, we need to 
address the staffing shortages in both the career and volunteer 
fire services, and we must also make certain that fire 
departments serving high risk areas for terrorism are fully 
staffed and prepared.
    The fire service appreciates the support Congress has 
provided to the United States Fire Administration. Through the 
outstanding work performed by USFA, the increased funding 
contained in your reauthorization measure is well justified and 
should continue to target USFA's major program areas.
    I strongly appeal to this subcommittee to preserve the FIRE 
Act program in its current structure, under the management of 
the United States Fire Administration. I also urge this 
Congress to ensure that the fire service plays a key role in 
homeland security and the development of national strategies 
dealing with terrorism preparedness.
    It is truly an honor for me to testify before you today, 
and I thank you for this opportunity, and I will be glad to 
answer any questions you might have.
    [The prepared statement of Mr. Compton follows:]
                  Prepared Statement of Dennis Compton
    Good Morning.
    Chairman Smith, Ranking Member Johnson and Members of the House 
Research Subcommittee, my name is Chief Dennis Compton of Mesa Arizona. 
I am honored to be testifying before the House Research Subcommittee on 
issues of great importance to both this subcommittee and to our 
nation's fire and emergency response personnel--issues that impact the 
readiness of approximately one million firefighters from every state in 
the Nation who serve as both career and volunteers. Prepared to make 
the ultimate sacrifice, our nation's firefighters respond to over 17 
millions calls, annually. . .from fire and emergency medical calls, to 
hazardous materials incidents, and potential acts of terrorism.
    Before I advance into my testimony, I would like to express my 
thanks and appreciation to this committee, specifically Chairman Smith 
and Ranking Member Johnson, for your leadership on our behalf. We are 
the beneficiaries of several significant pieces of legislation enacted 
by Congress in recent years, most notably legislation that created and 
funded the Assistance to Firefighters Grant Program, commonly referred 
to as the FIRE Act. We, our nation's fire service, appreciate the 
willingness on the part of Congress to work in the spirit of bi-
partisanship to address critical needs that will improve the level of 
readiness of our nation's first responders.
    For 32 years, I have been a firefighter--27 years with the Phoenix, 
Arizona Fire Department and the last five as Chief of the Mesa Fire 
Department. From the very first, I have looked forward to every day on 
the job. Although retired from Mesa, I continue to remain active 
serving with the International Fire Service Training Association, as a 
board member of the National Fire Protection Association, member of the 
International Association of Fire Chiefs, and as immediate past chair 
of the Congressional Fire Services Institute's National Advisory 
Committee. The fire service will always be an important part of my 
life. . .and so will my desire to make the fire service better prepared 
to do its job.
    I have been asked to present my views on a number of important 
issues this subcommittee is addressing: the reauthorization of the 
United States Fire Administration (USFA), the administration of the 
Assistance to Firefighters Grant Program, the position of United States 
Fire Administrator as a Presidential Appointee and the Firefighting 
Research and Coordination Act sponsored by my Senator, John McCain in 
the Senate and Congressman Dave Camp in the House. Following my 
testimony, I would be most willing to answer questions related to these 
issues as well as any others that pertain to what it takes to prepare 
our nation's fire service for its job.

I. LREAUTHORIZATION OF THE UNITED STATES FIRE ADMINISTRATION

    First the reauthorization of the United States Fire Administration. 
Five years ago, I was asked to participate in a panel convened by then-
FEMA Director James Lee Witt. The mission of the panel was both 
compelling and time sensitive as there was a fear that our federal fire 
programs--specifically the United States Fire Administration and 
National Fire Academy--were languishing. The panel issued a report 
containing 34 recommendations for change. The panel did not point 
fingers at individuals, but rather cited core deficiencies in the areas 
of leadership, resource management and communication.
    Wasting little time, the USFA began the process of responding to 
each recommendation. Today, USFA is serving its core mission in 
addition to assuming new responsibilities primarily in the area of 
terrorism training. It has as its administrator, Chief David Paulison, 
a widely-respected 30-year veteran of the fire service who understands 
what's needed by our firefighters and how the Federal Government can 
respond most effectively and efficiently.
    The United States Fire Administration is the lead federal agency 
for the fire service. It is our voice. . .the guardian of our programs. 
We take great pride in the work of USFA. It is the lone federal agency 
tasked with reducing the Nation's loss of life due to fire through data 
collection, public education, training, and research and technology.
    While I support transferring USFA and FEMA into the Department of 
Homeland Security, I urge Congress and this subcommittee to never allow 
USFA to loose its identity. Both the Fire Administration and the Fire 
Administrator should maintain a prominent presence within the 
Department of Homeland Security. When officials within the Department 
convene to discuss policy matters or heightened security alerts, USFA 
officials should have a seat at the table with their tent card reading 
``USFA'' to make clear to everyone in the room the individual 
representing the interest of our one million firefighters.
PRESIDENTIAL APPOINTMENT OF U.S. FIRE ADMINISTRATOR
    Moreover, I strongly believe that the Fire Administrator should 
remain a presidential-appointed position, confirmed by the Senate. 
Because of the important nature and duties associated with this 
position, the President needs an Administrator with whom he can place 
his trust and who shares his vision on homeland security issues. I 
would also urge future administrations to look for candidates who 
possess an acute understanding of the fire and emergency services and 
hold no predisposition for any particular fire service group or 
element, but rather have holistic outlooks of the fire service.
NATIONAL RESIDENTIAL FIRE SPRINKLER STRATEGY
    Section Three of the House measure addresses a National Residential 
Fire Sprinkler Strategy, a provision I fully support. I am a strong 
proponent of residential fire sprinklers. In fact, my home is fully 
sprinklered. When I served as Chief of Mesa, the city adopted a 
sprinkler ordinance for new residential construction. Saving lives 
starts with prevention and the combination of sprinklers and smoke 
alarms can significantly reduce the number of lives lost each year, 
which stands at approximately 4,000 annually. Many of my peers share my 
conviction and would look forward to supporting the Fire Administration 
in developing a strategy to promote the use of residential fire 
sprinklers.
    One statistic says it all about fire sprinkler systems: there has 
never been a multi-death fire in a fully sprinklered building in which 
the sprinklers were fully operational.
FIREFIGHTING RESEARCH AND COORDINATION
    One key difference between the House and Senate authorization 
measures is the inclusion in the Senate bill of the Firefighting 
Research bill introduced by Senator John McCain. Congressman Dave Camp 
introduced a similar measure, which is pending in the House Science 
Committee. Prior to introducing their measures, both Senator McCain and 
Congressman Camp sought input from the fire service organizations to 
ensure that their measures would have the desired results they 
intended.
    A key element of the legislation addresses the advent of 
firefighting technology and the development of new standards to measure 
their performance. The legislation would not authorize the Federal 
Government to create standards, but rather to create measuring 
techniques and testing methodologies that can be incorporated into the 
standards-making process. The legislation has received the support of 
more than 40 national organizations composing the Congressional Fire 
Services Institute's National Advisory Committee.
    Since September 11th, new technologies have been introduced to the 
market designed to address both existing and emerging threats. In the 
interest of firefighter safety, there must be some mechanism in place 
to measure the performance of this equipment, especially if they are 
going to be purchased with federal funds. Where standards do not exist 
to address this technology, the McCain-Camp bill will initiate the 
process.
    The national fire organizations also support other sections of the 
legislation calling for coordination of response to national 
emergencies and for increased training. We believe strongly that the 
United States Fire Administration should serve as the primary point of 
contact for state and local firefighting units during national 
emergencies. But as we stated to both authors, Congress needs to 
appropriate additional funds for USFA to carry-out this legislation, 
and not use existing funds.

II. LASSISTANCE TO FIREFIGHTERS GRANT PROGRAM (FIRE Act)

    As I mentioned earlier, the fire service is the beneficiary of a 
number of Congressional actions, but nothing is more critical to our 
mission than the measures that authorized and continue to fund the 
Assistance to Firefighters Grant Program.
    Public Law 106-398, which contains the language that established 
the grant program, states that the purpose of the program is for 
``protecting the health and safety of the public and firefighter 
personnel against fire and fire-related hazards.'' Although funds can 
be used to purchase terrorism-related equipment, the program is 
directed at addressing basic needs. And according to the survey 
recently completed by the U.S. Fire Administration and National Fire 
Protection Association, many departments remain in need of basic 
equipment such as turn-out gear, radio communications, and breathing 
apparatus that only the FIRE Act can address.
    The survey revealed that:

        <bullet> LAn estimated 73,000 firefighters serve in fire 
        departments that protect communities of at least 50,000 in 
        population and have fewer than 4 career firefighters assigned 
        to first-due engine companies. (The National Fire Protection 
        Association calls for at least four firefighters per engine.)

        <bullet> LFire departments that deliver an average of 4 or 
        fewer volunteers to a mid-day house fire constituted 21 percent 
        of departments protecting communities with less than 2,500 
        population.

        <bullet> LAn estimated 57,000 firefighters lack personal 
        protective clothing.

        <bullet> LAn estimated one-third of firefighters shifts are not 
        equipped with self-contained breathing apparatus.

        <bullet> LOverall, fire departments do not have enough portable 
        radios to equip more than about half of the emergency 
        responders on a shift.

        <bullet> LAn estimated 120.1 million people are protected by 
        fire departments that do not have a program for free 
        distribution of home smoke alarms.

    As you know, the House Appropriations Committee approved $750 
million for the program for Fiscal Year 2004, the same level as last 
year. In addition, they included in the report language that the 
Emergency Preparedness and Response Directorate should administer the 
program, giving USFA control of the program. The Senate version, 
approved last week, also contains $750 million for the grant program, 
but transfers authority to administer the program to the Office of 
Domestic Preparedness (ODP). The $750 million contained in both 
measures exceed the President's request of $500 million; however the 
Senate measure is more closely aligned with the Administration's 
proposal which recommends the shift to ODP. The management of the FIRE 
Act by the U.S. Fire Administration has been an incredible success and 
the fire service is concerned that transferring that responsibility to 
ODP would dilute the effectiveness of the program.
    Unlike grant programs administered by ODP, the FIRE Act sends money 
directly to local fire departments; only a small percentage is set 
aside for USFA to cover administrative costs. Now some argue the 
benefits of using the states to direct the flow of dollars, saying it's 
more cost effective and can target the money better. However, this 
method has never proven to be effective for the fire service, primarily 
because the fire service lacks centralized representation at the state 
level. We have neither state fire chiefs nor Secretaries of Fire Safety 
within any of the 50 states. Instead, the command structure originates 
from within local jurisdictions, with local fire chiefs occupying the 
top positions.
    Moreover, reiterating what I just said moments, ago, the FIRE Act 
is about addressing basic needs to enable fire departments to confront 
challenges they encounter on a daily basis--fires, emergency medical 
calls, hazardous material spills, etc. On the other hand, there is no 
question regarding the mission of ODP. Prominently displayed on its 
website, the mission statement reads, ``Enhancing the capacity of state 
and local first responders to respond to incidents of terrorism 
involving weapons of mass destruction.'' This is what raises our 
concern; that eventually the FIRE Act would become another terrorism 
program, leaving thousands of fire departments unprepared for their 
basic missions.

III. COUNCIL ON FOREIGN RELATIONS REPORT

    As Members of the this subcommittee are aware, the Council on 
Foreign Relations, chaired by former U.S. Senator Warren Rudman, 
recently issued a report titled, ``Emergency Responders: Drastically 
Underfunded, Dangerously Unprepared.'' The report outlined a number of 
concerns regarding our nation's preparedness for potential terrorist 
attacks. As it relates to the Assistance to Firefighters Grant Program, 
I was intrigued by their assessment of how slowly federal funds are 
being distributed and spent at the State level. The Council attributes 
it, in part, to the excessive amounts of paperwork. Conversely, USFA 
has been very effective in disbursing FIRE Act funds, enabling local 
fire departments to purchase needed equipment and training, including 
the types highlighted in the Council's report.
    As the report says, ``The United States could spend the entire 
gross domestic product (GDP) and still be unprepared, or wisely spend a 
limited amount and end up sufficiently prepared.'' Is the Federal 
Government spending enough? The answer is ``no.'' Should it be spending 
five times the current amount as the report recommends? It's hard to 
say. I can only speak on the needs of the fire service.
    I do believe that given the challenges facing local fire 
departments, we need to spend more. First we need to bring all fire 
departments up to a base-line level for training and equipment. This is 
being achieved through the FIRE Act. Then we need to address the 
staffing shortages in both the career and volunteer fire services. This 
can be addressed through the SAFER legislation pending in both the 
House and Senate (H.R. 1118 and S. 544). Then we must identify high-
risk areas and make certain that the fire departments serving in these 
areas are fully staffed, trained, and equipped to respond to potential 
acts of terrorism. This might mean spending five times more than the 
Federal Government is spending, or it might mean less.
    We can't say that time will provide the answers, because as you 
know, time is not on our side. We must move quickly.

IV. CONCLUSION

    Members of this subcommittee, I thank you for allowing me this 
opportunity to testify today. Hopefully, both my oral and written 
testimonies have provided some valuable insight on the Federal 
Government's role to enhance the readiness of our nation's fire 
service.
    Thirty years ago, the National Commission on Fire Prevention and 
Control issued a report titled, ``America Burning,'' highlighting our 
nation's fire problems. At the time the report was issued, 12,000 
people were dying in fire each year. Today the figure is down to 
approximately 4,000. The reason for the reduction has so much to do 
with the content of the report, including the recommendation to 
establish a United States Fire Administration and National Fire 
Academy.
    The fire service appreciates the support Congress has provided to 
the United States Fire Administration. Through the outstanding work 
performed by USFA, the increased funding contained in your 
reauthorization measure is well justified. The funds should continue to 
target programs benefiting fire departments and their personnel, 
primarily through USFA's four program areas: data collection, public 
education, training, and technology development.
    Moreover, I appeal to this subcommittee to preserve the FIRE Act in 
its current structure. Nobody can ascertain the needs of the fire 
service better than USFA, the national fire associations that continue 
to work in close consultation with USFA in administering the program, 
and the hundreds of firefighting personnel who volunteer their time to 
review the grant applications each year. We know what's best for our 
own.
    On the important issue of homeland security, I urge this Congress 
to ensure that the fire service plays a key role in the development of 
national strategies dealing with terrorism preparedness. After all, we 
are the front line of defense prepared to send our bravest in the first 
wave of battle. Hence, we deserve to fill positions of leadership so 
that our voice will be heard.
    It is truly an honor for me to have a role in this process today. 
Chairman Smith, I thank you in particular for your support of the 
National Fallen Firefighters Memorial Service. We were honored by your 
presence both last year and in 1999 as we paid final tribute to those 
firefighters who died in the line of duty.
    Now I will be glad to answer any questions from this subcommittee.

                      Biography for Dennis Compton

Personal Information:

Business Address: P.O. Box 21208; Mesa, AZ 85277-1208

Business Telephone: (480) 244-8529; Fax: (480) 654-5420

E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2044434f4d50544f4e604341424c45415a0e434f4d">[email&#160;protected]</a>

Marital Status: Married to Sher since 1968

U.S. Army Veteran: 1968-1970; Honorable Discharge

Employment and Acknowledgments:

        <bullet> LCurrently serve as an Executive Advisor, facilitator, 
        teacher, and consultant in the public, private, and non-profit 
        sectors.

        <bullet> LFunctioned at the Executive level of two large, 
        complex organizations. Served as the Chief Executive of the 
        Mesa, Arizona Fire Department for more than five years and as 
        Assistant Fire Chief for the Phoenix, Arizona Fire Department 
        for more than fifteen years.

        <bullet> LServed for a total of thirty-two (32) years in the 
        Phoenix and Mesa Fire Departments. During that time, I managed 
        budgets in excess of $120 million. Phoenix and Mesa are the 6th 
        and 43rd largest cities in the United States and have earned 
        reputations for having world class Fire Departments. The Mesa 
        Fire Department is fully accredited since 2001. Responsible for 
        City-wide Emergency Management in Mesa.

        <bullet> LServed in command of the Phoenix (FEMA) Urban Search 
        and Rescue Team (USAR) that was deployed to incidents 
        attracting worldwide concern, including the bombing of the 
        Federal Building in Oklahoma City. Also served at the Pentagon 
        and World Trade Center scenes immediately following the 
        September 11, 2001 terrorist attacks.

        <bullet> LCo-owner of Dennis Compton & Associates and S&D 
        Products and Services. These two businesses are held in 
        partnership with my spouse.

        <bullet> LSelected as the 1991 National Instructor of the Year 
        by the International Society of Fire Service Instructors.

        <bullet> LSelected as the Fire Service Person of the Year 2000 
        by the American Fire Sprinkler Association.

        <bullet> LSelected as the University of Phoenix Distinguished 
        Alumnus of the Year 2001.

        <bullet> LReceived the 2003 CFSI Mason Lankford National Fire 
        Service Leadership Award.

        <bullet> LMember of the Arizona Fire Service Hall of Fame.

Additional Professional Contributions and Experience:

        <bullet> LPast Chair of the Executive Board of the 
        International Fire Service Training Association (IFSTA).

        <bullet> LElected as the Vice-Chair and Chair of the 
        Congressional Fire Services Institute's National Advisory 
        Committee (CFSI NAC) headquartered in Washington, D.C.

        <bullet> LMember of the National Fire Protection Association 
        (NFPA) since 1979, serving in various capacities including:

                
                 LMember of NFPA Board of Directors.

                
                 LManaged the Fire Department Analysis Project 
                (FIREDAP).

                
                 LStrategist and facilitator for strategic and 
                operational planning exercises throughout the 
                operations and business areas of NFPA.

                
                 LMember of NFPA Urban Fire Forum for five years.

                
                 LMember of NFPA technical committees.

                
                 LRepresentative on the National Home Fire Sprinkler 
                Coalition.

        <bullet> LAppointed to the National Blue Ribbon Panel in 1998 
        to review the effectiveness of the United States Fire 
        Administration.

        <bullet> LServed on the National Fire Service Leadership Summit 
        since its inception.

        <bullet> LElected President of the Metropolitan Phoenix Fire 
        Chiefs Organization.

        <bullet> LMore than thirty years of experience in local, 
        county, State, and national politics.

        <bullet> LMember of the International Association of Fire 
        Chiefs and their Metro Chiefs organization.

        <bullet> LMember of the Arizona Emergency Services Association.

        <bullet> LServe on the Advisory Board of the non-profit 
        Foundation for Burns and Trauma.

        <bullet> LMember of the Board of the non-profit 100 Club of 
        Arizona.

        <bullet> LMember and Paul Harris Fellow in the Downtown Phoenix 
        Rotary Club.

International Involvement:

        <bullet> LConsulted with international representatives to 
        develop alliances directed towards integrating the IFSTA 
        validation process into their countries and developing new 
        product lines.

        <bullet> LConsulted with representatives of the Soviet Union, 
        England, Germany, other European countries, Australia, Latin 
        America, Mexico, Japan, and others to present and discuss 
        community fire and life safety issues.

        <bullet> LWorked with Rotary International to provide 
        ambulances, medical supplies, fire fighting apparatus, and 
        other equipment to cities in Mexico.

        <bullet> LInvited to do various management presentations at 
        several international conferences conducted abroad.

        <bullet> LMember of Institution of Fire Engineers (IFE).

Education, Teaching, and Writing Experience:

        <bullet> LBachelor of Arts Degree in Management from the 
        University of Phoenix.

        <bullet> LAssociate of Arts Degree in Fire Science from Phoenix 
        College.

        <bullet> LSelected as one of only forty participants in a one-
        year ``Leadership Fellowship'' in Phoenix, Arizona.

        <bullet> LProgram Chair of Fire Science at Phoenix College for 
        14 years.

        <bullet> LPast member of the President's Commission on 
        Excellence in Education at Mesa Community College.

        <bullet> LMember of the Advisory Board of the Arizona State 
        University Fire Services Institute.

        <bullet> LMember of the Advisory Board for the Fire and 
        Emergency Management Masters Degree Program at Oklahoma State 
        University.

        <bullet> LInvited speaker at many national and international 
        conferences.

        <bullet> LTeach accredited management and leadership courses at 
        universities and symposia internationally.

        <bullet> LAuthor of three successful books in a continuing 
        series focusing on management and leadership titled, When In 
        Doubt, Lead!

        <bullet> LCo-editor of the current edition of the International 
        City and County Management Association's text and reference 
        book titled, Managing Fire and Rescue Services.

        <bullet> LAuthor of the leadership chapter of The Fire Chiefs 
        Handbook, published by PennWell.

        <bullet> LCo-author of a lead chapter in the NFPA's Fire 
        Protection Handbook.

        <bullet> LContributing Editor for ``Firehouse'' Magazine, 
        ``FireTimes.com'', and ``Firehouse.com''.

        <bullet> LAuthor of many articles published in national and 
        international periodicals. Interviewed and referenced in 
        technical articles and textbooks.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Smith. The honor is ours, Dennis. Dr. John Hall is 
our next witness. Dr. Hall is Assistant Vice President for Fire 
Analysis and Research at the National Fire Protection 
Association, NFPA. This division of NFPA is responsible for the 
measurement of the national fire problem and the communication 
of the results as a statistical basis for the fire protection 
strategies.
    Dr. Hall was formerly an operations research analyst with 
the U.S. Fire Administration. He holds a B.A. in mathematics 
from Brown University and a Ph.D. in operations research from 
the University of Pennsylvania.
    Dr. Hall, welcome, and thank you.

 STATEMENT OF DR. JOHN R. HALL, JR., ASSISTANT VICE PRESIDENT, 
     FIRE ANALYSIS AND RESEARCH, NATIONAL FIRE PROTECTION 
                       ASSOCIATION (NFPA)

    Dr. Hall. Chairman Smith--honored to appear before you 
today.
    [PA malfunction]
    Dr. Hall. Take three. Chairman Smith, Ranking Member 
Johnson and Members of the Committee, I am honored to appear 
before you today. NFPA is a non-profit organization founded 
more than 100 years ago with a mission to save lives through 
education, research and the development of consensus codes and 
standards. Our codes and standards are accredited by the 
American National Standards Institute and developed in a 
consensus process that ensures all interested parties have a 
say. Congress has repeatedly affirmed its support for voluntary 
consensus standards.
    Today, I wish to testify in support of H.R. 545, and first, 
let me state emphatically that the reauthorization of the U.S. 
Fire Administration is extremely important to the effectiveness 
of the fire service throughout the United States. For nearly 
three decades, the USFA and the National Fire Academy have been 
working successfully with NFPA and the fire service to reduce 
the death and destruction caused by fire in the U.S.
    The staff at USFA has done a tremendous job in 
administering the Assistance to Firefighters grant program. 
This program has provided more than $1 billion in financial 
resources directly to fire departments. Nonetheless, fire 
departments have applied for more than $7 billion, and the real 
needs are even greater, as I shall discuss.
    It is crucial that the FIRE Grant program be maintained as 
a separate and distinct funding source where fire departments 
can receive direct funding from the USFA and avoid unnecessary 
red tape. I would also urge the Congress to fund the program at 
a level no less than its authorized amount of $900 million.
    When I said the needs are much greater than the currently 
authorized and appropriated amounts for the FIRE Grant program, 
I was speaking on the basis of the Needs Assessment Survey of 
the fire service, which was specifically commissioned by 
Congress as part of the FIRE Act, and which was recently 
completed by NFPA in cooperation with FEMA/USFA.
    The needs assessment began before the horrific events of 
September 11, 2001, but because of the foresight of USFA and 
our fire service advisors, that survey included extensive 
attention to terrorism preparedness. Thus, when the Council on 
Foreign Relations began their exercise under former Senator 
Warren Rudman to develop estimates of the costs of terrorism 
preparedness, the needs assessment permitted NFPA to develop 
and substantiate the fire service portion of these cost 
estimates with unusual supporting detail.
    In a report released just a few weeks ago, the Council 
estimates that it will take $98.4 billion in additional funds 
over the next five years to adequately meet the needs of our 
first responders to handle the additional responsibilities of 
homeland security. The fire service portion of this is more 
than half the total.
    The needs identified by the Council are enormous, and the 
needs identified by NFPA for traditional fire service duties 
are equally impressive. It is important to understand that 
these needs are not a wish list for the fire service. They are 
the result of an objective third party comparison of what the 
fire service has to what the fire service needs to do its 
assigned job safely and effectively.
    A key element of H.R. 545 is the requirement that equipment 
purchased through the FIRE Grant program must meet or exceed 
applicable voluntary consensus standards. This is not a new 
concept. For example, the Department of Justice's Bulletproof 
Vest Partnership Grant Program requires that vests meet minimum 
safety and performance standards. The Office of Domestic 
Preparedness and the Department of Homeland Security encourages 
and may soon require the use of NFPA standards for protective 
clothing in responding to hazardous materials, chemical and 
biological incidents. In July 2002, the national fire service 
organizations, including IAFC [International Association of 
Fire Chiefs], IAFF [International Association of Fire Fighters] 
and NVFC [National Volunteer Fire Council], stated that all 
equipment and training purchased with federal funds should be 
required to meet nationally recognized voluntary consensus 
standards whenever possible.
    The Needs Assessment Survey and the Council on Foreign 
Relations exercise are a call to action, a challenge to our 
nation to respond fully to dangerous times.
    Our firefighters face the same limitations and obstacles 
they encountered on September 11th. In fact, with the reported 
State and local budget cuts that are in the papers everywhere 
you look, they face even greater limitations. We can no longer 
ask our fire departments to survive entirely on local tax 
revenue supplemented by local fundraisers. The Federal 
Government must provide adequate resources and support to our 
firefighters, as they protect us and the security of our 
homeland.
    This legislation would begin to address these urgent needs, 
and NFPA enthusiastically supports it. Mr. Chairman, thank you 
for the opportunity to testify today. I will be happy to answer 
any questions you or other Members of the Committee may have.
    [The prepared statement of Dr. Hall follows:]
                Prepared Statement of John R. Hall, Jr.
    Chairman Smith, Ranking Member Johnson and Members of the 
Committee, I am honored to appear before this Committee today. My name 
is John Hall and I am Assistant Vice President for Fire Analysis and 
Research of NFPA (the National Fire Protection Association). NFPA is a 
non-profit organization, founded more than 100 years ago, with a 
mission to save lives through fire and life safety education and 
training, fire research and analysis, and the development of consensus 
codes and standards that are adopted by state and local jurisdictions 
throughout the United States and widely used by the Federal Government.
    Today NFPA has nearly 300 codes and standards addressing safety, 
each accredited by the American National Standard Institute (ANSI) and 
developed by technical experts, the fire service, and others 
participating as volunteers in a consensus process. This process 
ensures that all interested parties have a say in developing standards. 
Congress affirmed its support for voluntary consensus standards in the 
National Technology Transfer and Advancement Act of 1995 (P.L. 104-113) 
and reaffirmed that support in the Homeland Security Act of 2002, the 
law that created the new department.
    As the Congress considers the reauthorization of the U.S. Fire 
Administration (USFA) and its many important functions, I wish, 
Chairman Smith, to testify today in support of H.R. 545, the 
Firefighting Research and Coordination Act, which is Title II of S. 
1152, the Senate version of the USFA reauthorization bill.
    First, let me state emphatically that the reauthorization of the 
U.S. Fire Administration is extremely important to the effectiveness of 
the fire service throughout the United States. In May of 1973, just 
over 30 years ago, the Chairman of the National Commission on Fire 
Prevention and Control, Richard E. Bland, transmitted to President 
Nixon its final report ``America Burning.'' In that report the 
Commission recommended establishment of the United States Fire 
Administration to:

        <bullet> LEvaluate the Nation's fire problem through data 
        collection and analysis and research,

        <bullet> LCreate a National Fire Academy to improve training 
        and education for fire service personnel,

        <bullet> LStrengthen public awareness of the fire threat, and

        <bullet> LProvide grants to State and local governments.

    For nearly three decades, the USFA and the National Fire Academy 
have been working successfully with NFPA and the fire service to reduce 
the death and destruction caused by fire in the U.S. We have made great 
strides over the past 30 years. While both civilian and firefighter 
deaths have decreased dramatically, we must do much more to ensure that 
our fire departments can meet the new challenges of homeland security, 
including responding effectively to biological or chemical accidents or 
attacks.
    Because my job at NFPA is to coordinate our statistical work in 
tracking and analyzing the U.S. fire problem, I particularly wish to 
commend the USFA for the National Fire Incident Reporting System 
(NFIRS). It is no exaggeration to say that more than 90 percent of what 
we know about the details of U.S. fire risks today would be a matter of 
unsupported opinion if it were not for NFIRS. But NFIRS needs care and 
support, as does the National Fire Information Council, which is the 
association of states and large cities participating in NFIRS. They 
cannot do the work they need to do without continued support from USFA, 
but that support is in doubt in the next budget.
    I also wish to commend the USFA for a quarter-century of leadership 
in advocacy of fire sprinklers in homes. From tests and engineering 
analysis to assessments of cost and public opinion, the USFA has 
contributed greatly to our national progress in bringing this life-
saving technology to the places where most U.S. fire deaths still 
occur. I would note that the legislation you recently introduced to 
reauthorize the USFA to include a more explicit emphasis on residential 
fire sprinklers contains a point, which needs to be clarified. Kitchens 
are not a high-risk area for fatal home fires, and it is USFA's NFIRS 
data that tells us this.
    Returning to the particulars of the USFA reauthorization, while we 
support the move of the USFA to the new Department of Homeland 
Security, there are important functions and positions that must be 
retained. For example, the USFA must continue to provide public 
education and fire prevention activities in partnership and cooperation 
with safety organizations, particularly those working to reduce fire 
deaths among high risk groups (children, older adults and persons with 
disabilities). It is also critical that the position of Administrator 
of the USFA remain a Presidential appointment to retain that important 
advocacy position within the Executive Branch.
    The staff at USFA has done a tremendous job in administering the 
Assistance to Firefighters (FIRE) Grant Program. Since its creation in 
FY 2001, this program has provided more than $1 billion in financial 
resources directly to fire departments. Nonetheless, fire departments 
have applied for more than $7 billion, and the real needs are even 
greater than this, as I shall discuss. It is crucial that the FIRE 
Grant Program be maintained as a separate and distinct funding source 
where fire departments can receive direct funding from the USFA and 
avoid unnecessary red tape. I would also urge the Congress to fund the 
program at a level no less than its authorized amount of $900 million 
dollars.
    When I said the needs are much greater than the currently 
authorized and appropriated amounts for the FIRE Grant program, I was 
speaking on the basis of the ``Needs Assessment Survey'' of the fire 
service, which was specifically commissioned by Congress as part of the 
FIRE Act and which was recently completed by NFPA in cooperation with 
FEMA/USFA. Let me share with you a few of the major findings from that 
survey.

        <bullet> LOnly one in every 10 fire departments has the local 
        personnel and equipment required to respond effectively to a 
        building collapse or the release of chemical or biological 
        agents with even minimal to moderate casualties;

        <bullet> L50 percent of our firefighters involved in 
        ``technical rescue'' lack formal training, but technical rescue 
        involving unique or complex conditions is precisely the skill 
        they would need to respond to a terrorist attack;

        <bullet> LThere are other huge gaps in training--There has been 
        no formal training for 21 percent of those involved in 
        structural firefighting; for 27 percent of those involved in 
        EMS work; and for 40 percent who are sent in to deal with 
        hazardous materials;

        <bullet> LAnd we don't protect our firefighters as we should. 
        One third of the protective clothing worn by firefighters sent 
        into a burning building is more than 10 years old, and an 
        estimated 57,000 firefighters lack any protective clothing at 
        all;

        <bullet> LOn a typical fire department shift, 45 percent of 
        first responding firefighters lack portable radios; 36 percent 
        lack self-contained breathing apparatus; and 42 percent answer 
        an emergency call without a Personal Alert Safety System (PASS) 
        device that is critical in locating an injured or trapped 
        firefighter;

        <bullet> LFinally, at least 65 percent of cities and towns 
        nationwide don't have enough fire stations to achieve widely 
        recognized response-time guidelines. Those guidelines recommend 
        that firefighters be on the scene of any situation within 4 
        minutes, 90 percent of the time.

    Not surprisingly, the picture is bleaker in our smaller 
communities. And remember seventy-five percent of the country's 
firefighters are volunteers. Twenty-one percent of rural communities 
often respond with too few firefighters to engage safely in structural 
firefighting. Our research also found that thirty-eight percent of fire 
departments in communities with more than 50,000 residents often 
respond with too few firefighters.
    The Needs Assessment began before the horrific events of September 
11, 2001, but because of the foresight of USFA and our fire service 
advisors, the survey included extensive attention to terrorism 
preparedness. When the Council on Foreign Relations began an exercise, 
under former Senator Warren Rudman, to develop estimates of the costs 
of terrorism preparedness for the entire first responder community at 
all levels of government, the Needs Assessment permitted NFPA to 
develop and substantiate the fire service portion of these cost 
estimates with unusual detail.
    In a report released just a few weeks ago, the Council estimated 
that it will take $98.4 billion in additional funds above current 
spending (estimated at $26-$76 billion) over the next 5 years, or $19.7 
billion per year, to adequately meet the needs of our first responders 
to adequately handle the additional responsibilities of homeland 
security. The fire service portion of this, based on the Council's use 
of NFPA's analysis of the Needs Assessment Survey, was $26.5 billion in 
initial costs and $7.1 billion per year in ongoing costs. The Council 
report also addresses how federal funding is allocated, stressing the 
importance of including threats and vulnerabilities, not just 
population.
    The terrorism preparedness needs identified by the Council for all 
first responders are enormous, and the needs identified by NFPA for 
traditional fire service duties are equally impressive, as may be seen 
in part in the background for the SAFER Bill, which NFPA also supports 
and the Science Committee held hearings on just one month ago. It is 
important to understand that these needs are not a wish list for the 
fire service. They are the result of an objective, third-party 
comparison of what the fire service has to what the fire service needs 
given its responsibilities, which have grown rapidly in the face of 
terrorism, and existing standards and guidelines. These standards and 
guidelines tell us what experts know about what it takes to do a 
particular job safely and effectively.
    A key element of H.R. 545 is the requirement that equipment 
purchased through the FIRE Grant Program must meet or exceed applicable 
voluntary consensus standards. This concept is not new. Many existing 
federal grant programs already have similar requirements. For example, 
the Department of Justice's Bulletproof Vest Partnership Grant Program 
requires that vests meet minimum safety and performance standards. In 
addition, through its equipment grant program, the Office of Domestic 
Preparedness (ODP) in the Department of Homeland Security encourages 
the use of NFPA standards for protective clothing in responding to 
hazardous materials/chemical/biological incidents. It is expected in FY 
2004 that ODP will require this. Additionally, the fire service and 
their national organizations understand the importance of NFPA 
standards, which they help to develop. In July 2002, the national fire 
service organizations, including IAFC, IAFF, and NVFC, released a 
position paper that addressed this issue by stating that all equipment 
and training purchased with federal funds should be required to meet 
nationally recognized voluntary consensus standards, whenever possible.
    The legislation you are considering is commendable and visionary. 
H.R. 545 will provide focus and resources for research on breakthrough 
technologies for the fire service. I will mention only one example of 
this kind of worthwhile research this program will advance. Research at 
the National Institute of Standards and Technology, under current 
cooperative agreements with USFA and under the direction of Dr. Randy 
Lawson, has already made major strides in developing better, more 
scientifically grounded methods of measuring the effectiveness of 
firefighter protective clothing in protecting the wearer from burns.
    Both H.R. 545 and the Senate version also address coordination of 
response to national emergency situations. The approach is similar to 
that used with great success by the U.S. Forest Service and related 
agencies to coordinate response to major wildfires. Contrast the 
smooth-running, pre-planned operations these agencies have been able to 
mount with the more ad hoc approach to terrorist attacks on our 
country.
    Both of these elements--focused research and multi-jurisdictional 
response planning--are excellent steps forward in meeting the needs of 
the fire service for both traditional responsibilities and the new 
responsibilities of terrorism response.
    As the country braces for the unknown at home, our nation's 
firefighters, who are nearly always the first responders in any crisis, 
are woefully unprepared to fully protect our citizenry or themselves. 
The need is urgent and overdue. The Needs Assessment Survey of the fire 
service and the Council on Foreign Relations exercise on terrorism 
preparedness for first responders are a call to action--a challenge to 
our nation to respond fully to dangerous times.
    Our firefighters face the same limitations and obstacles they 
encountered on September 11th. In fact, with the reported State and 
local budget cuts taking place, our firefighters face even greater 
limitations than they did on September 11th. We can no longer ask our 
fire departments to survive entirely on local tax revenue supplemented 
by local fundraisers. The Federal Government must provide adequate 
resources and support to our firefighters to meet the many challenges--
whether natural, unintentional or deliberate--as they protect us and 
the security of our homeland.
    This legislation would begin to address these urgent needs, and 
NFPA enthusiastically endorses it.
    Mr. Chairman, thank you for the opportunity to testify today. I 
will be happy to answer any questions you or other members of the 
Committee may have.

                    Biography for John R. Hall, Jr.
    Dr. John R. Hall, Jr. is the Assistant Vice President for Fire 
Analysis and Research at the National Fire Protection Association 
(NFPA) in Quincy, Massachusetts. Dr. Hall's division at NFPA is 
responsible for the measurement of the national fire problem and the 
communication of the results as a statistical bases for fire protection 
strategies.
    Dr. Hall has authored or co-authored scores of articles and reports 
on fire statistics, effectiveness of fire service management practices, 
and fire risk analysis. He was formerly an Operations Research Analyst 
with the U.S. Fire Administration and with the National Bureau of 
Standards Center for Fire Research, after serving as a Senior Research 
Associate with the Urban Institute. He has been active in fire analysis 
and fire research for two decades.
    He holds a B.A. in Mathematics from Brown University and a Ph.D. in 
Operations Research from the University of Pennsylvania. He is a member 
of the Institute for Operations Research and the Management Sciences, 
the American Society for Testing and Materials Committee E5 on Fire 
Tests, and the International Association for Fire Safety Science. He 
has served as an officer or member of the governance structure of all 
three organizations, and is the convenor of the Fire Risk Analysis 
working group of ISO TC 92 SC4. He is also a member of the Society for 
Risk Analysis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Smith. Again, thank you very much. One of the 
concerns that Representative Lofgren had was the threads, and 
New York has got its own thread standard that it manufactures. 
How would we go about--other than, I mean, what we do in my 
home town is all of the local fire departments that tend to 
work with each other sit down and get together and say look, if 
we are going to be called in on a fire, then we have got to be 
able to match up with our equipment as it matches, to make sure 
that we can contribute when we are called in to one fire. On 
the thread problem, we have got an estimated four or five 
different standards for accommodating hookups. How would you go 
about--other than having local communities where you are going 
to call in local fire departments, try to get together, to 
either have a coupling that would make it compatible, how would 
you go about something like that, making it more consistent and 
more standard?
    Dr. Hall. Well, the hose standards were actually one of the 
issues that led to the formation of NFPA over 100 years ago. 
The problem with achieving actual standardization and 
interoperability is always a multipart one. First, you have to 
have a standard, and second, you have to get compliance with 
the standard. There have always been jurisdictions which have, 
for their own reasons, decided to develop their own approaches, 
and it is not unusual that problems arise in interoperability 
when this is the case. One of the things that the Federal 
Government has often been able to do is not so much to develop 
standards that are missing as to achieve greater compliance 
with standards that exist. A good example is in the area of 
manufactured housing. When the HUD standard was developed in 
1976, it basically took the language from an NFPA standard, but 
by becoming a federal law, it instantly achieved universal 
compliance with the manufacturers of manufactured housing, and 
there was a substantial reduction in fires and fire deaths as a 
direct result.
    Unfortunately, over time, by having control over the 
development of the standard, it ceased to keep pace with new 
technology, so you both illustrated the specific advantage of 
the federal system, which is achieving compliance, and their 
weakness, which is maintaining modernness.
    Chairman Smith. Chief Compton, am I correct in assuming 
that most of the country operates similar to Michigan, that the 
State of Michigan provides funding for training, but 
essentially, the maintenance and support for local fire 
departments is a local effort that comes from whether it is 
fundraisers or local property taxes, is that the way most of 
the country operates?
    Mr. Compton. Mr. Chairman, Members of the Committee, yes. 
That is the way that most--sort of states and communities 
operate. Most of the funding for fire departments is local 
funding, and really, the FIRE Act has been the first 
significant program that has provided direct support to those 
fire departments.
    Chairman Smith. Well, and just for the record, hopefully, 
the--those interested in having a stronger program, next year, 
when the $900 million expires, hopefully, we can increase that 
to a level that is going to keep fire departments across the 
country in better shape to respond to fires and emergencies 
that we are looking at. So, hopefully, we can call on the 
support of everybody that might be tuning in to this hearing 
today. Part of the challenge that I would like your advice on, 
Chief, is where we go with the grant program for fire 
departments to be better prepared for terrorist attacks, and 
how much can the Fire Administration be involved in that kind 
of effort as far as reviewing those grants, and I agree with 
the testimony that absolutely, we are going to insist that 
the--under the Section 33 FIRE Grant program be separated from 
any additional efforts for terrorist preparedness, but how--it 
seems to me like we have got to have fire experts to be 
involved in a close way in trying to decide what is reasonable 
for the FIRE Grant program that is going to apply just to 
preparing against terrorist attacks.
    Mr. Compton. Mr. Chairman, Members of the Committee, the 
really separate methods of funding for preparing for some of 
the more extreme aspects of terrorism, but let me go back kind 
of to the beginning to your question. Is it--I was--I worked at 
Oklahoma City during the bombing there, the first seven days. I 
was also on the scene of the Pentagon and the World Trade 
Center, and those fire departments that responded there on 
those days did--on April 19, 1995, they responded just like 
they did on April 18, 1995, in Oklahoma City, and at the 
Pentagon, they responded the way they did on September 10, and 
it was the same way in New York City, and the funds that we 
invest in the day to day capability of our fire departments and 
the basic capability to deliver fire suppression services, 
emergency medical services, hazardous materials response, 
technical rescue capability, does tend to assist in preparing 
them more for any event that they respond to, so it is an 
investment in the front end of our system. We don't get a whole 
lot of additional assistance the day we respond to a national 
terrorist event. We respond the way we did the day before, from 
the standpoint of training and equipment.
    Chairman Smith. Yes. Excellent point. Representative 
Johnson.
    Ms. Johnson. Thank you, Mr. Chairman. Do you believe that 
the firefighting and fire protection equipment obtained under 
the FIRE Grants program should conform to consensus standards 
where such standards exist?
    Dr. Hall. I am assuming that question is for me. Yes, 
Representative Johnson, we very much do believe that that is an 
important provision of this bill. We are sensitive to the 
desirability of having a process that can establish equivalence 
to a standard, and I believe that the language that is being 
discussed for the bill may provide a basis for doing that. 
Compliance with all of our standards in all forums where they 
are examined for compliance always includes the possibility of 
equivalence and the tools to establish that something is 
equivalent are very much the subject of the good work at NIST. 
They have done a great deal to establish performance-based 
assessment procedures, so yes.
    Mr. Compton. If I might add to that, many of the standards 
that you--we were talking about deal directly with personal 
protective equipment, and protecting firefighters and 
protecting the public, so I believe very strongly that that 
equipment should have to conform, but I also agree with Chief 
Paulison, in that the USFA needs some latitude to deal with 
technologies and situations that were not anticipated, and so 
that we can continue to grow and improve.
    Ms. Johnson. Thank you both. How do the fire services 
community get involved in the current process of developing the 
standards? I know that with all of the fire departments, urban 
and rural, across the country, there probably are some 
variations and some various needs, different needs as well.
    Dr. Hall. In the NFPA system, we achieve a balanced 
representation on all technical committees and the fire service 
is always a part of that. They get particular emphasis in any 
committee that is looking at standards of particular use to 
them, but we always have representation also from manufacturers 
and researchers, the public, other interests that have 
something to bring.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Gingrey. Am I on? All right. Thank you, engineer. Dr. 
Hall and Chief Compton, despite our wealth and prosperity, it 
is no secret that America has one of the worst fire records 
among developed nations. One of the reasons often cited for 
this is poor attention to fire prevention. Do you agree that 
this is a primary reason for our higher--high injury and death 
rate relative to other nations? What activities does USFA focus 
on in terms of fire prevention, and finally, do competing 
agendas perhaps cause us to focus too much on response and not 
enough on prevention?
    Dr. Hall. That is an excellent question, Representative 
Gingrey. I appreciate your asking it. From the very beginning, 
I believe the U.S. Fire Administration has taken a very 
balanced approach to both prevention and mitigation of fires. 
They have made major impacts on public fire safety education, 
arson prevention on the prevention side and fire detection and 
suppression on the mitigation side. In each instance, what they 
try to do, and what we at NFPA try to do, is to find out which 
new idea is going to make the most difference for the least 
money.
    Quite often, those new ideas are on the prevention side, 
because you are quite right. Traditionally, the U.S. has paid 
less attention to fire prevention than other advanced countries 
with better fire safety records than ours.
    As to the question of competing agendas, I think that the 
different organizations have found a great deal of success in 
working together and complementing each other's efforts, 
reinforcing each other's work, and that within the U.S. Fire 
Administration, they have also done a very nice job of 
maintaining balance, so I would not regard that as a major 
problem.
    Mr. Gingrey. Chief Compton?
    Mr. Compton. I look at that more in a systems--from a 
systems standpoint, in that there are really three elements of 
a fire and life safety infrastructure that we have to deal 
with. One is the built environment, and it deals with 
prevention and codes and built-in protection and those types of 
issues, and there are some immediate gains made in that end of 
our system, but for the most part, that is a long-term approach 
to building an environment that is safer.
    The second deals with human behavior, and it is almost 
impossible for someone to build something that we can't mess up 
by our own behavior. Basically, what we take into structures, 
the way we behave in those structures, the--literally, the way 
that we--the way we teach people to either prevent situations 
from happening to them, and not just fires, but others, or 
survive them if something does occur, and then the other is the 
issue of emergency response, because when we have situations 
that occur, which is a much more short-term part of our system, 
matter of fact, it is usually three to six minutes is the 
expectation there, but it is also a critical element. It is 
very difficult for fire departments to shore up the long-term 
solutions to our nation's fire problem, which is fire 
prevention and public education to some extent.
    While you are trying to get on the scene within three to 
six minutes, and you can't do that either, and it is another 
reason for the FIRE Act and the SAFER legislation and bills of 
that nature, is that we--if we can shore up the emergency 
response capability of our system, we can continue to build the 
other. And I also--I don't know if you are all aware or not, 
but the FIRE Act program has a percentage of those funds set 
aside for fire prevention and public education programs, and it 
is a very important part of that Act. So I appreciate the 
question as well. It is an important part of our system, and it 
is an issue that we deal with regularly at the local level.
    Mr. Gingrey. Thank you both, and I yield back my time, Mr. 
Chairman.
    Chairman Smith. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. The question I was 
going to ask, actually essentially was asked by Representative 
Gingrey, but I want to come back to a couple of points. One is, 
and I think we have to be careful in--first of all, I think I 
speak on behalf of every Member of Congress and virtually every 
American. We are so appreciative to our firefighters and what 
they do every day, and we learned so much about the risks that 
they take on September 11th and most of us have not forgotten 
that lesson, but I think we have to be careful, too, and that 
is that you can't build a levy high enough to protect against a 
thousand year flood, and I am not certain that we can do enough 
at the state, federal, or local level to ever ultimately be 
ready for another act like we saw on September 11, so I think 
we have to be careful to over-promise what we can do here, or 
at the local level.
    But I want to change the subject slightly, because I also 
chair a Subcommittee, and we are responsible for--on that 
Subcommittee, for all of the national forests, through the 
USDA, and I know that that is not necessarily your bailiwick, 
but I think we need to remind ourselves, too, that last year, 
of the some 94 million acres of federal forest land, we had 
wildfires which burned millions of those acres, but worse than 
that, we lost, I believe the number is 22 firefighters in 
battling those blazes.
    Is there anything the USFA or any of the groups are doing, 
any of the technology that you are deploying or any of the 
things that we can do to hopefully protect more of these 
principally young people, who are out there whenever we have a 
wildfire, whether it be in Arizona or Wyoming or Minnesota, 
wherever it happens to be, is there anything that you are doing 
in your research or at NIST that can help us do a better job of 
preventing those wildfires, and we have some ideas of our own, 
in terms of what the President has proposed and I am a strong 
supporter of that, but then secondly, in terms of battling 
those blazes more effectively and protecting the lives of those 
young firefighters?
    Dr. Hall. You are absolutely right that that is a very 
important part of the total U.S. fire problem. In fact, about a 
third of the costliest fires of all time in the U.S. consist of 
wildfires from the last decade and a half, so it is an area 
that needs more of our attention. NFPA is active in a program 
called Firewise, working with the U.S. Forest Service and other 
kindred agencies to address a whole host of research, 
educational and other programs to try to improve the situation 
in these wildland/urban interface problems, which is the term 
that is commonly used. The Forest Service, I think, is doing a 
superb job of leadership in this area, and I believe that they 
reach out to the Fire Administration and to NIST in areas where 
there is a common goal or a common set of resources, and 
certainly, NIST has a long history of technology applicable to 
all sorts of fires.
    Some of the work of the last several years, they have 
looked at ways of modeling and predicting the development of 
fire in very large situations. Initially, the oilfields of 
Kuwait, but it is applicable in many respects to forest fires 
as well. So I think the short answer to your question is that 
we are all treating that as a priority, and there are always 
opportunities to work more together.
    [PA malfunction]
    Mr. Gutknecht. Here we go. Mr. Chairman, I will pursue this 
more with folks from NIST, because you know, the kids that we 
drop into those forest fires, I mean they don't take with them 
much technology at all, and it seems to me, especially since we 
are talking about federal lands, we have a very strong moral 
responsibility, and I would just say this editorially, I am 
very concerned about what is going to happen in northern 
Minnesota. We have had a terrible blowdown up there, and we 
know that sooner or later, it is going to burn, and when it 
does, it is going to be a horrific fire, and yet there is 
little being done right now to help clean up that and get some 
fireblocks put in place, so that we don't lose another 22 kids, 
and a lot of those kids are going to be from Minnesota.
    I yield back my time. Mr. Compton, if you want to say.
    Mr. Compton. The program John mentioned, or Dr. Hall 
mentioned on Firewise, is a program that if you all are not 
familiar with it, it is something that from a national 
standpoint that we could pay more attention to, because it is a 
prevention program. It does deal with fireblocks. It does deal 
with this interface issue, of where you have forest 
firefighting, but where we may have let that burn in the past, 
we have homes in there now, and we--and so there is a different 
motivation to deal with those fires differently, so from the 
standpoint of training and incident command and prevention, 
there are programs in place that can help us do that better.
    Dr. Hall. If I could just add one other point, one of the 
features of the bill you are considering today which I spoke 
well of in the full written testimony would create the kind of 
national response to unusually large local situations which has 
already been well developed in the wildland area. The 
preexisting state and local agreements with federal agencies 
which now provide an automatic trigger for bringing in outside 
resources when a wildfire reaches a certain size are 
transportable to the building environment and you have a 
provision in your legislation that I think would implement that 
concept in a very useful way.
    Chairman Smith. Well, we are just--the fire--the western 
fire season is just starting, the fires have already started, a 
tremendous challenge.
    Mr. Gutknecht. Mr. Chairman, if I could, I would like to at 
least continue this dialogue privately with you, and maybe we 
can do some things, because one of the concerns, and I know my 
time has expired, is that--and we had a situation, I think, a 
year ago in Colorado where we had planes that could have helped 
put out the fire faster, but for some arcane rules relative to 
the National Guard and other things, they were unable to even 
take off, and it seems to me there ought to be some ways we in 
Congress--it shouldn't require an act of Congress, but in 
Congress perhaps can help massage those rules so that we can 
get at these fires more quickly and get them under control. I 
yield back my time. I am sorry.
    Chairman Smith. Gentlemen, again, thank you very much. 
Chief Compton, just your practical commonsense approach is--
should be--it is an inspiration for me to try to look at ways 
that we can make people more conscious of doing reasonable--
taking reasonable precautions in their homes and in their 
backyards to prevent more fires, and I was especially struck 
recently by what appears to be sort of the loss of our pioneer 
spirit of taking care of ourselves and thinking somehow, 
somebody else should protect us from cracks in the sidewalk or 
whatever.
    When a tree limb started cracking and I just happened to be 
walking by it two weeks ago, out by the guard gate going into 
the Capitol, and you could hear the cracking, you know, and 
people looked up and just kept walking underneath it, and the 
limb finally came down and knocked one guy and gave him a 
concussion, but we are losing the--sometimes, the danger is of 
becoming too protective that we lose some of that pioneer 
spirit, that communities and individuals have to start thinking 
and using common sense to try to prevent more of the fires that 
can happen in those communities.
    Gentlemen, again, thank you very much. The hearing is 
concluded. The Committee will convene in three minutes for a 
markup on the bill.
    Mr. Compton. Thank you, Mr. Chairman.
    [Whereupon, at 11:25 a.m., the Subcommittee proceeded to 
other business.]
                              Appendix 1:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
